<html>
<title> - WOMEN IN MANAGEMENT: ARE THEY BREAKING THE GLASS CEILING?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





       WOMEN IN MANAGEMENT: ARE THEY BREAKING THE GLASS CEILING?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2002

                               __________

                           Serial No. 107-170

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

85-484              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                        Justin Paulhamus, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2002...................................     1
Statement of:
    Robertson, Robert E., Director, Education, Workforce, and 
      Income Security Issues, U.S. General Accounting Office, 
      accompanied by Lori Rectanus; Eileen Appelbaum, Ph.D., 
      professor and director, Center for Women and Work, School 
      of Management and Labor Relations, Rutgers University; 
      Christine Stolba, senior fellow, Independent Women's Forum; 
      and Judy H. Mello, founding member and vice chairwoman, the 
      Committee of 200...........................................     9
    Schieffelin, Allison K., former principal, Morgan Stanley, 
      accompanied by Wayne Outten, attorney at law; Renuka 
      Chander, research manager, Office of Membership and 
      Meetings, American Association for the Advancement of 
      Science; Susan Ness, Annenberg Public Policy Center, former 
      Federal Communications Commission Commissioner; and Marie 
      C. Wilson, president, the White House Project..............    95
Letters, statements, etc., submitted for the record by:
    Appelbaum, Eileen, Ph.D., professor and director, Center for 
      Women and Work, School of Management and Labor Relations, 
      Rutgers University, prepared statement of..................    56
    Chander, Renuka, research manager, Office of Membership and 
      Meetings, American Association for the Advancement of 
      Science, prepared statement of.............................   105
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    76
    Mello, Judy H., founding member and vice chairwoman, the 
      Committee of 200, prepared statement of....................    72
    Ness, Susan, Annenberg Public Policy Center, former Federal 
      Communications Commission Commissioner, prepared statement 
      of.........................................................   110
    Robertson, Robert E., Director, Education, Workforce, and 
      Income Security Issues, U.S. General Accounting Office, 
      prepared statement of......................................    12
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinios, prepared statement of...............     6
    Schieffelin, Allison K., former principal, Morgan Stanley, 
      prepared statement of......................................    99
    Stolba, Christine, senior fellow, Independent Women's Forum, 
      prepared statement of......................................    66
    Wilson, Marie C., president, the White House Project, 
      prepared statement of......................................   130

 
       WOMEN IN MANAGEMENT: ARE THEY BREAKING THE GLASS CEILING?

                              ----------                              


                         MONDAY, APRIL 22, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                      New York, NY.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
New York State Assembly Hearing Room, Room 1923, 250 Broadway, 
New York, NY, Hon. Stephen Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Horn, Schakowsky, and Maloney.
    Also present: Bill Perkins, deputy majority leader, New 
York City Council, Ninth District.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Justin Paulhamus, 
clerk; and David McMillen, minority professional staff.
    Present from Congresswoman Carolyn Maloney's staff: Ben 
Chevat, chief of staff; Minna Elias, New York chief of staff; 
Phil Craft, New York deputy chief of staff; Orly Isaacson, 
senior legislative assistant; and Jessica Fox, director of 
constituent services.
    Present from Assemblyman Sheldon Silver's staff: Yvonne 
Morrow, director, constituent services.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    This subcommittee has a broad and, thus, diverse 
jurisdiction. We have examined an array of issues from child 
support and childcare to computer security and medical privacy. 
Today, we are here to examine an issue that affects families 
and the productivity of this Nation.
    More than 2,000 years ago the Greek philosopher Plato 
wrote, ``Nothing can be more absurd than the practice that 
prevails in our country of men and women not following the same 
pursuits with all their strengths and with one mind. For this 
the state, instead of being whole, is reduced to half.''
    When I was acting chairman of the U.S. Commission on Civil 
Rights for the period 1969 to 1982, we had our colleagues fully 
support the Equal Rights Amendment. And as you know, it was 
only missed by one or two votes in the States. Indeed, we are a 
Nation that is strengthened by our belief in equal opportunity 
for all Americans; yet, despite the efforts of the 1964 Civil 
Rights Act, the 1965 Voting Rights Act, yet despite those 
efforts, a number of recent studies have found that women are 
still being paid less than men, even though they are performing 
equivalent jobs.
    I welcome our witnesses today, each of whom will discuss 
this troubling disparity.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.001
    
    Mr. Horn. I now ask the ranking member, Ms. Schakowsky, the 
ranking member from Chicago--and we are delighted to have her 
here today. Chicago has the wind, New York has the rain.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    And I would really like to also thank Congresswoman 
Maloney--I am assuming that she will be here soon--for her 
tireless leadership on behalf of women's equality and for 
putting together this report, along with Congressman Dingell, 
which refocuses our attention on these important issues. I very 
much look forward to this prestigious panel made up of people 
who are doing such wonderful work, and some very good friends 
of mine.
    I wanted to acknowledge that on September 11th the brave 
women of the New York Police Department, the New York Fire 
Department and the Port Authority rushed to the rescue of their 
fellow New Yorkers, women and men. They demonstrated their 
commitment and their skill. These women made us all proud. It 
is fitting that we are here in New York today to discuss the 
welfare of women throughout our Nation.
    Ours is a country founded on the principles of freedom and 
equality. Our Constitution begins, ``We hold these truths to be 
self-evident, that all men are created equal.'' Nearly 100 
years later President Lincoln quoted those words at Gettysburg, 
saying ``our fathers brought forth upon this continent a new 
Nation, conceived in liberty and dedicated to the proposition 
that all men are created equal.'' Nearly 100 years later 
President Kennedy quoted those same words and went on to say, 
``The rights of every man are diminished when the rights of one 
man are threatened.''
    Ours is also a history of struggle to make those principles 
a reality for all people, men and women, all men and women. 
That same Constitution had embedded in it the principle that 
slaves would be counted as three-fifths of a person, part 
human, part property. It was not until after the death of 
President Lincoln that we undid that disgrace through the 
ratification of the 14th amendment. It took another 50 years 
before we ratified the 19th amendment and franchised women and 
another 50 years after that before we seriously addressed the 
political and social equality of the races.
    The last quarter of the 20th century was one of wide-
ranging social, economic and political change. Even as we 
fought for equality and civil rights, we had yet to adequately 
address equality of the sexes.
    As with most fights for equality, the first step was to get 
those in power to recognize that there was a problem. When 
experts like those we will hear from today pointed out the 
problems of pay equity, the establishment was quick to 
rationalize those differences with explanations like attachment 
to the labor force and human capital. Undeterred, advocates and 
academics joined to dispel those excuses and show that pay 
equity was real and unjust.
    Today, our facts are irrefutable. Our evidence is 
plentiful. We have before us a report that shows women still 
make less for the same work and often are blocked from board 
rooms. Ours is a fight for social justice and a fight against 
an insidious and pervasive system that undervalues women and 
their work.
    Change will not come about through labor economics, but 
through the same paths as past social change. We must be firm 
and insistent that this injustice will not be tolerated in a 
Nation that defines itself in terms of social justice. We must 
repeat the evidence again and again until everyone knows the 
facts and knows right from wrong. We must draw in our 
colleagues in every walk of life, wherever we have the 
opportunity, and make our case to our brothers, our sons, our 
sisters and our daughters.
    At the same time, we must remember that change is 
happening. We only have to look around this room to see that 
progress has been made during our lifetime.
    As we struggle to make the world a more equitable one for 
our children, we must also make sure they recognize our 
progress. Today, there are more women in key positions than 
ever before and they serve as role models for those who come 
behind us, making it easier for them to earn their own place in 
business or government.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]

[GRAPHIC] [TIFF OMITTED] T5484.002

[GRAPHIC] [TIFF OMITTED] T5484.003

    Mr. Horn. We will now move to the presentations. I am sure 
Ms. Maloney will be here soon. We will have her statement when 
she arrives.
    But panel one and panel two--let me mention our order. We 
are going to ask you, and if your assistants are going to 
answer questions, to take the oath. This is an investigatory 
committee, and so we take this very seriously.
    When your name is called, under the rules of the 
subcommittee, your full statement is with the reporter and 
automatically put in the hearing record. We would like you to 
take 7 or 8 minutes to talk from the heart and give us a 
summary of your statement as we have already looked at the 
written statements, which are very fine. So, it is important to 
hit the main points.
    We will start now with the--first, we're missing--I think 
Eileen Appelbaum is missing. Let's see, we have Mr. Robertson, 
Ms. Stolba, Ms. Mello, so if you will rise----
    Mr. Robertson. Could we add Lori Rectanus, too?
    Mr. Horn. Yes, and all your assistants.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all have affirmed, in 
addition to GAO's backup. May I say that we are very glad that 
the General Accounting Office can be here. We always like to 
have them either at the beginning or the end.
    You work for the legislative branch and you do wonderful 
work.
    And, of course, the General Accounting Office is not what 
it seems there. They are programmatically not simply in 
accounting, but they are programmatically reviewing all 
government activities. And the chief person involved, the 
Comptroller General of the United States, Mr. Dave Walker, has 
a 15-year term. So nobody can intimidate him. He is there more 
than Presidents, more than Members of Congress; and he is doing 
a great job, and they have fine, wonderful people.
    We would like--after they finish their summary, we would 
like to have you sort of sum up where we missed something with 
the witnesses. We will obviously go with each witness, 8 or so 
minutes, 8 or 10, and then we will--once they are all done on 
panel one, we will go to questions and answers in a round of 5 
minutes on each side. We treat everybody in the majority and 
the minority the same way.
    So we will now start with Robert E. Robertson, Director, 
Education, Workforce and Income Security Issues, U.S. General 
Accounting Office.
    Mr. Robertson, we are glad to have you here.

    STATEMENTS OF ROBERT E. ROBERTSON, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
OFFICE, ACCOMPANIED BY LORI RECTANUS; EILEEN APPELBAUM, Ph.D., 
 PROFESSOR AND DIRECTOR, CENTER FOR WOMEN AND WORK, SCHOOL OF 
 MANAGEMENT AND LABOR RELATIONS, RUTGERS UNIVERSITY; CHRISTINE 
 STOLBA, SENIOR FELLOW, INDEPENDENT WOMEN'S FORUM; AND JUDY H. 
 MELLO, FOUNDING MEMBER AND VICE CHAIRWOMAN, THE COMMITTEE OF 
                              200

    Mr. Robertson. Mr. Chairman, Representative Schakowsky, 
thank you very much for inviting us to be part of these 
hearings.
    Today, I am going to be talking about a report that we 
issued in October that provided perspective on women in 
management. As I indicated earlier, I am fortunate to have Lori 
Rectanus with me; she is the person that led that work. The 
report was based on an analysis of the Department of Labor's 
current population survey. I am going to talk about that survey 
a little bit later.
    The report's analysis was basically structured within three 
broad areas. And as a concession to age, I am going to have to 
put my glasses on now, or who knows what words may come out of 
this mouth.
    The first area we looked at was a comparison of key 
characteristics of women and men managers, including their 
levels of education, age, part-time work status, and marital 
status.
    The second area we looked at was women's representation in 
management positions compared with their representations in all 
positions within particular industries.
    And finally, we analyzed the salary differentials between 
men and women in full-time management positions, using a 
statistical technique that allowed us to control for the 
effects of education, age, marital status and race. This 
morning I am going to walk you quickly through those three 
areas of findings.
    But first, as I said earlier, I would to talk just a little 
bit about the Current Population Survey, or the CPS, data base 
that we used. The CPS is basically a monthly survey of 50,000 
households that contains key labor force data such as 
employment, wages, and occupations. Our analysis of the data 
base focused on 10 cities which, according to CPS, accounted 
for about 70 percent of all wage and salary positions that were 
filled by women in 2000.
    Now, for the purposes of our analysis, we defined managers 
as individuals with CPS occupation titles that included the 
words ``administrator,'' ``director,'' ``manager,'' or 
``supervisor.'' So our definition cut across a wide swath of 
different types of managerial responsibilities.
    The CPS data has several limitations you should be aware 
of. For example, the data does not contain some of the key 
information that would be necessary to fully identify causes 
for salary differentials, such as years of experience or job 
responsibility. Also, the CPS data are self-reported by 
respondents and are not independently verified.
    Having given you the setup, let me quickly walk through the 
results of the findings in each of the three areas.
    In summary, starting with the comparison of key 
characteristics of women and men managers, we found that women 
managers in the 10 industries we examined generally had less 
education, were younger, were more likely to work part-time and 
were less likely to be married than male managers. We have 
charts and graphs to illustrate these differences. You can 
either follow along with the poster boards we have up front, or 
if you look at the illustrations that are in my prepared 
statement, I think they start on page 3. Or you can do a 
combination of both.
    Starting with Figure 1, dealing with education, let me give 
you a general orientation. You will see at the bottom of that 
graph all of the 10 industries that we examined listed. The 
dark bars on that graph represent the percent of women managers 
with college degrees or greater, and the lighter bars represent 
the same information for men managers. As the chart shows, 
women managers were estimated to have lower educational levels 
than men in all 10 industries, and these differences were 
statistically significant in five of the industries.
    Now, if we move on to Table 1--we haven't practiced this, 
so we hope the charts stay up there--if we move to Table 1, we 
find that female managers in most of the industries that we 
examined were younger than their male counterparts. Hospitals 
and medical services was the only industry where female 
managers were older than male managers.
    Now, if we move to Figure 2, that shows that female 
managers were more likely to work part-time than male managers 
in most of the 10 industries that we examined. For example, in 
professional medical services, female managers were an 
estimated four times more likely than male managers to work 
part-time. In finance, insurance, and real estate there wasn't 
really a significant difference between the percent of male and 
female managers working part-time. Both of those were around 13 
percent.
    And finally, the final characteristic we looked at, Figure 
3, you will see that female managers were less likely to be 
married than their male counterparts across the 10 industries 
that we examined.
    Now, if we move to the second broad area of our analysis, 
which is the representation of women managers in the 10 
industries, I would ask you to look at Figure 4, which I think 
is on page 7 of the prepared statement. This graph shows there 
is no statistically significant difference between the percent 
of industry positions filled by women and the percent of 
management positions filled by women for five of the industries 
we examined. In contrast, the percent of industry positions 
filled by women was significantly different from the percent of 
management positions filled by women in the other five 
industries. Let me put this in English.
    In the educational service area, in retail trade, finance, 
insurance and real estate, and hospital and medical services, 
women were less represented in management positions than they 
were in all positions. In professional medical services, which 
is the last bar there, the opposite was true. Women were 
represented to a greater degree in management positions than 
they were industry-wide.
    Now, if we move to the last of three areas of our analysis, 
which talks about the salary differentials between men and 
women managers, these data are captured on table 2. What we 
found here was, after controlling for education, age, marital 
status, and race, full-time female managers earned less than 
male managers in both 1995 and 2000 within all 10 industries. 
For 2000, we found that the full-time female managers earned an 
estimated low of 62 cents for every $1 earned by full-time male 
managers in the entertainment and recreation services, compared 
to an estimated high of 91 cents in the educational service 
area.
    Now, as I indicated earlier, I would caution you to 
remember that the analysis of the wage differences did not 
consider certain factors to help explain the differences, such 
as years of experience. You also have to be careful in 
interpreting the 2 years as a trend.
    Mr. Chairman, that concludes my prepared statement, and 
I'll answer questions at the appropriate time.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.004
    
    [GRAPHIC] [TIFF OMITTED] T5484.005
    
    [GRAPHIC] [TIFF OMITTED] T5484.006
    
    [GRAPHIC] [TIFF OMITTED] T5484.007
    
    [GRAPHIC] [TIFF OMITTED] T5484.008
    
    [GRAPHIC] [TIFF OMITTED] T5484.009
    
    [GRAPHIC] [TIFF OMITTED] T5484.010
    
    [GRAPHIC] [TIFF OMITTED] T5484.011
    
    [GRAPHIC] [TIFF OMITTED] T5484.012
    
    [GRAPHIC] [TIFF OMITTED] T5484.013
    
    [GRAPHIC] [TIFF OMITTED] T5484.014
    
    [GRAPHIC] [TIFF OMITTED] T5484.015
    
    [GRAPHIC] [TIFF OMITTED] T5484.016
    
    [GRAPHIC] [TIFF OMITTED] T5484.017
    
    [GRAPHIC] [TIFF OMITTED] T5484.018
    
    [GRAPHIC] [TIFF OMITTED] T5484.019
    
    [GRAPHIC] [TIFF OMITTED] T5484.020
    
    [GRAPHIC] [TIFF OMITTED] T5484.021
    
    [GRAPHIC] [TIFF OMITTED] T5484.022
    
    [GRAPHIC] [TIFF OMITTED] T5484.023
    
    [GRAPHIC] [TIFF OMITTED] T5484.024
    
    [GRAPHIC] [TIFF OMITTED] T5484.025
    
    [GRAPHIC] [TIFF OMITTED] T5484.026
    
    [GRAPHIC] [TIFF OMITTED] T5484.027
    
    [GRAPHIC] [TIFF OMITTED] T5484.028
    
    [GRAPHIC] [TIFF OMITTED] T5484.029
    
    [GRAPHIC] [TIFF OMITTED] T5484.030
    
    [GRAPHIC] [TIFF OMITTED] T5484.031
    
    [GRAPHIC] [TIFF OMITTED] T5484.032
    
    [GRAPHIC] [TIFF OMITTED] T5484.033
    
    [GRAPHIC] [TIFF OMITTED] T5484.034
    
    [GRAPHIC] [TIFF OMITTED] T5484.035
    
    [GRAPHIC] [TIFF OMITTED] T5484.036
    
    [GRAPHIC] [TIFF OMITTED] T5484.037
    
    [GRAPHIC] [TIFF OMITTED] T5484.038
    
    [GRAPHIC] [TIFF OMITTED] T5484.039
    
    [GRAPHIC] [TIFF OMITTED] T5484.040
    
    [GRAPHIC] [TIFF OMITTED] T5484.041
    
    [GRAPHIC] [TIFF OMITTED] T5484.042
    
    [GRAPHIC] [TIFF OMITTED] T5484.043
    
    [GRAPHIC] [TIFF OMITTED] T5484.044
    
    Mr. Horn. And our second witness on panel one has just 
arrived, Dr. Eileen Appelbaum, professor and director, Center 
for Women and Work, School of Management and Labor Relations, 
Rutgers University.
    Ms. Appelbaum. Thank you very much for inviting me here, 
and I apologize for being late.
    Mr. Horn. We will have to swear you in since you weren't in 
the earlier group.
    [Witness sworn.]
    Mr. Horn. We will note Dr. Appelbaum has affirmed.
    Ms. Appelbaum. Well, I wanted to speak about two things 
today, both of which I know are familiar to people. But I 
wanted to comment on the implications of them for both what I 
call private policies, policies that companies can engage in 
today and that unions can engage in today, and public policies, 
the kinds of policies that require some sort of government 
action.
    As we begin this century, there are two salient facts about 
women and work that I think are really important to make. And 
perhaps I am repeating some of what has been said; I apologize 
again.
    The first is the dramatic increase in the employment of 
women over the last century, which I think we are all aware of. 
But what people may not be quite as aware of is the tremendous 
increase in the employment of mothers of young children. The 
employment rate of mothers of young children is now 70 percent. 
Seventy-two percent of women with children younger than 18, and 
65 percent of those with children younger than 6 are in the 
work force.
    On average, these women work pretty much full-time hours. 
They are working 35 hours a week, on average, so they are 
really fully occupied. The result of this is that we do not 
have a situation, as we had in the 1950's and the 1960's, in 
which there was a full-time adult at home to deal with all of 
the care and other responsibilities.
    The second salient fact is the persistent gap in earnings 
between men and women. This gap has persisted, despite the fact 
that today women are as likely as men to have a college degree. 
In fact, at the bachelor's level, they are more likely to have 
a college degree. And yet the wage gap has not disappeared; it 
has narrowed. If we go back to the 1970's, we would find that 
women were earning 62 cents for every $1 earned by a man, and 
this gap did narrow over the 1980's, but it has stagnated in 
the second half of the 1990's and it is widening again.
    So I want to talk about these two points and what their 
implications are, and say a few words about where the treatment 
of women managers and professionals come into play.
    You know, sometimes it is argued that there has not been 
much change; if you look at hours that people are working, they 
haven't changed much over the last 20 years, and full-time 
workers rarely work more than 40 hours a week. But this really 
does not get at the heart of the question, because if you go 
back to the 1960's or even 1970, what you find is that, for the 
most part, women stayed at home. You had one full-time worker.
    If you take a look at the 1970's into the 1980's, the hours 
of work of married-couple families begin to rise; and by the 
middle of the 1980's, we have this situation where family hours 
of work are the equivalent of one full-time and one part-time 
job.
    But by the time we get to the 1990's, married-couple 
families with children at home, with young children at home, 
families in the middle of the income distribution are now 
working 3,900 hours a year. This is equivalent to two full-time 
jobs. So the time squeeze comes not because individual workers 
are working so many more hours, but because families are 
providing so many more hours of work to the labor market. And 
so we have this huge squeeze in terms of time that needs to be 
taken into account.
    If we look at the wage gap and ask ourselves, why did it 
narrow during the 1980's and why is it stagnating now and ever 
widening, what we see are two things. In the 1980's, women's 
wages did rise as a result of the fact they had better 
education and as a result of the fact they were spending more 
years in the work force.
    But the other big piece of that puzzle is that men's wages 
were falling during the 1980's, and so a lot of the catch-up 
had to do with the fact that the men were leveling down, not 
only that women were leveling up. But that's what took place 
through 1993 or 1994.
    And if we look today, we see that the wage gap has 
stabilized and has begun to widen again.
    The reasons are several fold. If we look at women without a 
college degree, what we find is that, as a result of welfare 
reform and the strong labor market of the 1990's, many single 
mothers entered the work force. Welfare reform got these women 
off the welfare rolls, but it did not get them out of poverty; 
and they moved into extremely low-paying jobs. The result is 
that the gap between men and women with a high school degree or 
less widened as these women entered into the work force and 
found their opportunities very limited.
    The second thing that happened is, if we take a look at men 
and women with a college degree, we find that women are 
increasingly not found in the information technology areas in 
which wages have risen so rapidly in the 1990's. So if you look 
at 1986, you find that women made up 35 percent of the systems 
analysts and the computer programmers, but if you look at the 
present period, you find they make up only 35 percent. So there 
has been a decline in women's share of the very best jobs in 
terms of pay in the 1990's for college graduates.
    The third thing that happened is the information that has 
brought us all together here today, and that is that the wage 
gap for managers and professionals between men and women began 
to widen in the mid-90's, and we find that women in 
professional and managerial positions are falling further and 
further behind.
    The numbers that were in the report from Congresswoman 
Maloney and Mr. Dingell talked about 10 industries, but if you 
take a look at managers and professionals generally, forgetting 
about whatever industry they worked in, you would find the same 
story. You would find that gap widening for women relative to 
men in managerial and professional occupations generally.
    One of the big problems with this huge wage gap and the 
fact that it doesn't disappear is, it then has implications not 
only for women's ability to fulfill themselves and to reach 
their complete potential and make their greatest contribution 
to the economy and to their families, but it also has an effect 
on the decisions that men make with respect to care activities. 
If you have a wide differential in pay between a husband and 
wife, it is difficult for a family to make a decision that the 
father should be engaged in the care of the children. So men 
miss out on a lot of experiences that they would like to have 
because of these inequities.
    So I think that we really need, as we look to the future, 
to think about policies and practices that will promote work-
life integration for both men and women.
    A lot of it, I think, has to do with the ability to control 
your time at work. There are many ways in which employers and 
unions can negotiate to reach opportunities for flexibility and 
for workers to take greater control over their own work time. 
So I think that the flexibility and work-time issues are 
important--I am running out of time, but they are in my written 
testimony so I won't elaborate.
    We also need paid family and medical leave. This, I do not 
think, can come from employers. This has to be handled the way 
we handled unemployment insurance, through a fund that is 
dedicated to this purpose. If we work on policies like this, I 
think we have to amend the Equal Pay Act to cover part-time 
workers. We are the last industrialized country in which it is 
legal to discriminate against employees on the basis of the 
fact that they work part-time rather than full-time hours.
    So I'll just stop there, and thank you very much.
    Mr. Horn. Well, thank you, and we'll get to a lot more 
things in the question period.
    [The prepared statement of Ms. Appelbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.045
    
    [GRAPHIC] [TIFF OMITTED] T5484.046
    
    [GRAPHIC] [TIFF OMITTED] T5484.047
    
    [GRAPHIC] [TIFF OMITTED] T5484.048
    
    [GRAPHIC] [TIFF OMITTED] T5484.049
    
    [GRAPHIC] [TIFF OMITTED] T5484.050
    
    [GRAPHIC] [TIFF OMITTED] T5484.051
    
    Mr. Horn. Our next presenter is Christine Stolba, senior 
fellow at the Independent Women's Forum.
    You might tell us a little bit about the Independent 
Women's Forum.
    Ms. Stolba. I will. Thank you, Mr. Chairman and members of 
the subcommittee. I am honored to have the opportunity to 
testify about ``Women in Management: Are They Breaking the 
Glass Ceiling?'' I am Christine Stolba, Senior Fellow at the 
Independent Women's Forum, which is a nonprofit, nonpartisan 
organization dedicated to research and public policy issues on 
women, particularly women in the work force. We accept no 
government funds, so we are--pursuant to House Rule XI, we 
don't accept any government funds.
    I want to talk briefly about the issue of both the wage gap 
and the glass ceiling, and then point to a few specific 
problems that I had with the Maloney-Dingell report.
    The existence of a wage gap and a glass ceiling are often 
cited as evidence of discrimination against women in the labor 
market, but the statistics and arguments to not withstand 
careful scrutiny. In 1999, the average annual full-time wages 
of women were 73 percent of those of men, but this average 
figure fails to consider crucial determinants of wages, 
including major variations between men and women in factors 
such as hours worked, education, age, part- or full-time 
status, experience, number of children, and most importantly, 
consecutive years in the work force. When these factors are 
considered, economists find an adjusted wage gap far smaller 
than the 73 percent figure, with academic studies ranging from 
88 to 99 percent on the male dollar.
    For example, tenure and experience are two of the most 
important factors in explaining the gender wage gap. According 
to the U.S. Bureau of the Census, women on average spend a far 
higher percentage of their working years out of the work force 
than men do. As many empirical studies have demonstrated, this 
means that when women return to work, they will not earn as 
much as their male or female counterparts who have more 
uninterrupted experience in the workplace.
    In many studies, when all relevant factors are considered, 
the wage gap virtually disappears. For example, University of 
Maryland Professor Judith Hellerstein found that women in the 
banking and miscellaneous products and plastics industries made 
99 percent of what men did. A recent study by the Employment 
Policy Foundation analyzed March 2001 Current Population Survey 
data and found that single women who never married, live alone 
and have a full-time job earn more than their male equivalents 
by 28 cents per hour.
    Misleading rhetoric can also characterize discussions of 
the existence of a glass ceiling, which is the supposedly 
impenetrable barrier that prevents women from advancing in the 
corporate world. The 1995 report issued by the Glass Ceiling 
Commission revealed that only 5 percent of senior managers at 
Fortune 1000 and Fortune 500 service companies were women, and 
implied that systemic discrimination against women was the 
cause. Yet the Glass Ceiling Commission report suffered from 
several methodological flaws. Typical qualifications for 
corporate senior management positions include both an MBA and 
25 years of work experience.
    Logic would suggest that the Commission made comparisons 
among the qualified labor pool of men and women to determine if 
discrimination was hampering women's advancement. But the 
Commission instead compared the number of women in the total 
labor force without reference to experience or education with 
the number wielding power at larger corporations, and this gave 
them the 5 percent figure.
    A cursory glance at the history of professional school 
degrees reveals that few of the graduates of the 1950's and 
1960's, who today would be at the pinnacle of their 
professions, were women. This suggests a pipeline theory where 
women are moving their way through pipeline into top corporate 
jobs. As well, evidence from organizations such as Catalyst 
suggests that this pipeline itself might be leaking, because 
women are leaving these jobs in the corporate world to take 
employment elsewhere often because they want flexible work 
arrangements and, also, often because they want to start their 
own businesses.
    And herein, I think, lies the crucial oversight of those 
who continue to claim that a glass ceiling is holding back 
American women. These are women's own choices and decisions 
about their careers, which are never factored into the 
equation.
    Studies of workplace behavior have found a clear difference 
in behavior and attitudes toward work between men and women, 
including that women are less willing to work long hours and to 
relocate and more eager for part-time work arrangements. 
Logging long hours and relocation are both routes to future 
promotion in corporate America. Ultimately, the only ceiling 
that exists in corporate America is a gender-neutral one, and 
it prevents those who choose to devote more time to their 
personal lives from advancing at the same rate as those who 
devote more uninterrupted time to the workplace.
    Of course, unfortunately, discrimination does still exist. 
But I would point out that we have two important laws on the 
books that should continue to be enforced, the Equal Pay Act of 
1963 and Title VII of the Civil Rights Act of 1964.
    So I feel, although Representatives Maloney and Dingell are 
to be commended for their interest in the issue of women's 
advancement in the workplace, their report suffers from several 
methodological flaws that render suspect its conclusions about 
the existence of discrimination against women in management.
    First, the report concedes that the data it used from the 
Federal Current Population Survey do not account for two 
important factors for determining salary levels--years of 
experience and level of managerial responsibility. The 
exclusion of these important variables, both of which are 
crucial determinants of compensation and workplace advancement, 
raise questions about the report's conclusion about 
discrimination in wages.
    To make a finding of discrimination, any comparison of 
men's and women's salaries must take into consideration age, 
education, and consecutive years of experience and the sizes of 
the businesses or firms being compared. Only after holding 
these factors constant can we make determinations about the 
existence of discrimination.
    As noted above, academic studies of the wage gap have found 
far lower disparities in wages than those found in the report. 
For example, Professors Marianne Bertrand at the University of 
Chicago and Kevin Hallock at the University of Illinois, 
writing in the October 2001 issue of Cornell University's 
Industrial and Labor Relations Review, found that women's 
earnings at the top of corporate America were not significantly 
different from men's when all relevant factors, such as age, 
education, and experience were taken into account.
    Moreover, between 1992 and 1997, woman nearly tripled their 
presence in the top executive ranks and strongly improved their 
compensation relative to men. Similarly, a 1999 National 
Science Foundation study of 1.5 million engineers concluded 
that female engineers make 98 cents on the dollar earned by 
their male counterparts.
    Second, the report concedes that women managers are more 
likely to work part-time than their male counterparts. This 
means that we can and should expect that women managers' 
salaries will be lower than their male and female counterparts 
who do not work fewer hours per week.
    Third, the report is merely a snapshot of 10 industries. 
Broader evidence reveals that women continue to make gains in 
the labor market and experience faster wage growth than men.
    Finally, and most importantly, I sense the underlying tone 
of the report suggests that equality for women means 
statistical parity with men in all fields. By this definition 
women will have achieved success only when they are half of all 
corporate CEOs earning exactly the same average wages as men 
do. But I believe this is a misguided standard of success 
because it fails to account for the heterogeneity of the female 
population and the powerful forces of individual choice.
    The assumption that without discrimination we would make 
exactly the same choices as men ignores the available evidence 
on women's preferences and is an assumption that many women 
find demeaning, for it suggests that we're incapable of making 
choices for ourselves and of bearing the consequences of those 
choices.
    Thank you.
    Mr. Horn. Thank you. That's a very good perspective to 
hear.
    [The prepared statement of Ms. Stolba follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.052
    
    [GRAPHIC] [TIFF OMITTED] T5484.053
    
    [GRAPHIC] [TIFF OMITTED] T5484.054
    
    Mr. Horn. And the last presenter on panel one is Judy H. 
Mello, a founding member and vice chairwoman of the Committee 
of 200. You might tell us a little bit about the Committee of 
200.
    Ms. Mello. I will. Good morning, Mr. Chairman, and the 
congressional hearing committee. My name is Judy Mello, a 
founding member and the vice chairman of the Committee of 200. 
For those of you not familiar with it, the Committee of 200 is 
a professional organization of preeminent businesswomen leaders 
and the premier organization of its kind in this country. The 
Committee of 200 is focused on actively promoting women's 
success in business both as entrepreneurs and as corporate 
leaders.
    We recently conducted the first-ever comprehensive study to 
measure women's clout, if you will, in the business world. Our 
goal was to define how real women's progress has been, to 
demonstrate where woman actually stand in the big picture, and 
to identify areas where women are either closing the gap or 
possibly losing ground.
    The study is called the C200 Business Leadership Index. I 
think you have a copy in front of you, and I will refer to it 
in a minute. It will be conducted and published annually as a 
measure of American businesswomen's progress toward parity with 
their male counterparts.
    The Business Leadership Index measures women's progress 
against their male counterparts using 10 benchmarks. The 
results, which were published this last March--were released in 
March, should be of some great interest to the committee.
    The index is measured on a 10-point scale where 10 
represents parity with men. Measured as a weighted aggregate of 
the 10 separate benchmarks measured in the study, the C200 
Business Leadership Index for 2002 indicates that 3.95 on a 
scale of 10 percent is where the parity sits today for women.
    This means that women are less than 40 percent of the way 
to equality with men when measured against the following 
benchmarks: First, women-owned businesses versus men-owned 
businesses, parity at that point, which is a total parity of 
10, women stand at 5.8. If you refer to page 5 in the folder 
that I had given to you, it would be helpful.
    Fortune 500 board seats occupied by women versus the number 
occupied by men today stands at 2.6 on a scale of 10.
    Fortune 500 corporate officers who are women versus men, 
that scale is 2.78 on a scale of 10.
    Company size of women-owned businesses versus company size 
of those owned by men is 3.25.
    Venture capital funding for women's companies versus VC 
funding for men's is at 1.1 on a scale of 10.
    Line and staff ratio, that is, the women of Fortune 500 
corporate officer positions who hold line positions versus 
staff positions, knowing that the line is the faster track to a 
CEO position, that scale is 5.6 to 10.
    The gender/wage gap, according to our analysis, shows that 
women's average weekly earnings as a proportion of men's in 
this category is 7.6.
    MBA enrollment, the number of women currently enrolled 
versus men, is 6.6.
    And keynote speakers at the top 10 high-profile annual U.S. 
conferences, meaning the number of women invited to speak 
versus men, is 3.8.
    Finally, the charity fund-raising chairs, the number of 
women asked to serve as honorary chairpersons for one of the 
top U.S. 10 charities versus men is zero.
    The analysis really was to combine these 10 different 
benchmarks when they are weighted to try to again assess on an 
overall basis what the power and influence of women in 
leadership roles are in this world. It is important to look not 
just at the overall index number, which is 3.8, but also at the 
individual benchmark numbers, so that we can see where we need 
to concentrate our efforts most to improve the opportunities 
for women in the business world.
    There is a lot of talk about the great strides 
businesswomen are making as business leaders in America. The 
most important--most powerful women in corporate executive 
offices have indeed become household names. And women who have 
avoided corporate roadblocks by striking out on their own are 
profiting from record growth. But let's consider what the 
individual benchmark numbers really indicate.
    The number of female corporate officers and board directors 
at Fortune 500 companies is still negligible. At the current 
rate of growth, women will not reach the halfway mark to parity 
with men as corporate officers in Fortune 500 companies until 
the year 2019. Neither will women reach the halfway mark in 
terms of occupying board seats in those companies until 2027.
    Venture capital funding going to women-led businesses is 
still minute when compared to the funding going to men-led 
businesses.
    While women are making progress toward parity with men as 
measured by enrollment in MBA programs, they still represent 25 
to 30 percent of the business student body. Sadly, there are no 
women acting as fund-raising chairs at the Nation's top 
charities. And women's participation as keynote speakers is 
under the halfway mark at a parity of 3.88.
    There is, however, encouraging news. Women-owned 
businesses, with an index number of nearly 6, are outpacing the 
growth rate of all businesses by 2 to 1. It would seem that 
women perceive the greatest opportunity in business as self-
employment, doing it their own way and avoiding the roadblocks 
that corporate America sets-up for them.
    The gender/wage gap issue is the closest to parity at 7.6 
on a scale of 10, and that is because this is an issue that has 
been discussed and addressed by committees like this for many, 
many years; but the current rate of growth is still going to 
take 30 years to reach parity with men. This is not to say that 
there are not steps that women can take to improve their own 
progress. The Committee of 200 is working especially with 
younger women to encourage the kind of educational choices that 
will lead women toward greater success and provide support and 
resources to hasten their path.
    However, a proactive stance on the part of government, 
corporate America, and academic institutions is critical to 
creating a business environment more conducive to the success 
of women in business today.
    Mr. Horn. Thank you. That is a helpful statement.
    [The prepared statement of Ms. Mello follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.055
    
    [GRAPHIC] [TIFF OMITTED] T5484.056
    
    [GRAPHIC] [TIFF OMITTED] T5484.057
    
    Mr. Horn. Our friend, Mrs. Carolyn Maloney, has joined us; 
and if you would like to have your opening statement--or would 
you just like to go on to questions?
    Mrs. Maloney. I think we--I'll put it in the record. I 
think it is more important to listen to our important 
panelists.
    Mr. Horn. Without objection, Ms. Maloney's statement will 
follow mine and the ranking member's as if read.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T5484.058

[GRAPHIC] [TIFF OMITTED] T5484.059

    Mr. Horn. Welcome.
    So now let's go to 5-minute rounds. There are three of us 
here, and we will just rotate it to get a lot of things out. I 
will lead with Ms. Schakowsky, the gentlewoman from Illinois, 
to start questioning this panel for the first 5 minutes.
    Ms. Schakowsky. Ms. Stolba, you make the argument that 
there is no wage gap and that there is no glass ceiling for 
women. You said, ``Ultimately, the only ceiling that exists in 
corporate America is gender-neutral--it prevents those who 
choose to devote more time to their personal lives from 
advancing at the same rate as those who devote more 
uninterrupted time to the workplace.''
    Rather than arguing that's gender-neutral, could not one 
argue that the rules of the game are structured in a way that 
traditionally favor men and that the arguments for the way to 
help to change the nature of the workplace would make it more 
possible for women to compete equally?
    Ms. Stolba. I do think that's true. You hear talk of the 
``old boys club,'' for example, in corporate America. I do 
think that as women become, and are now, half the work force, 
and as they choose to move throughout corporate ranks, they 
will begin demanding certain changes.
    But I would caution in saying that I don't think there is a 
role for the Federal Government to impose those changes. I 
think what we have now with existing antidiscrimination 
legislation is sufficient as long it is continually and 
vigorously enforced. I don't think, however, that the Federal 
Government should take the role of telling businesses, private 
businesses, that you must give a certain number of weeks of 
paid leave, paid family leave, for example, and those sorts of 
things. I think that is a dangerous thing.
    Ms. Schakowsky. I think it is also dangerous--the way I 
hear this is, in many ways, to blame the victim. And the use of 
the words ``gender-neutral'' imply that the playing field is 
precisely even. And I think that it's important, whether or not 
you believe that government should intervene, or whether 
voluntarily the workplace has to accommodate women, to say that 
it is gender-neutral and that women simply choose to be lesser 
players, I think increases the burden then on women.
    I want to add a couple of questions about this issue of 
choice. Do you really believe that the choice that women have 
to invest in family is the same as men have? I think that's 
what gender-neutral implies.
    Ms. Stolba. Well, yes, of course. But the point is that we 
are not all going to make the same choices. I would add that 
the feminist movement in the 1960's was all about giving women 
as many choices as possible; it wasn't supposed to tell women 
what to choose.
    And I think when we get into discussions of parity in the 
workplace, feminist groups and a lot of activists tend to want 
to ignore the fact that 70 percent of women in their lifetime 
have children. And many women, when polled, if you look at the 
data of young woman who are childless entering the work force, 
they are earning about the same as their male counterparts. It 
is once they have families that they then decide--and this is a 
private family decision--that the women want to take some more 
time off work.
    I think that men who want to do that--and more and more 
young men are doing that----
    Ms. Schakowsky. Let me talk about some women that don't 
have choices.
    Ms. Appelbaum talked about, as part of the explanation of 
the growing wage gap, the influx into the workplace of women, 
low-educated, poor women, as a result of welfare reform. This 
was not a matter of choice. I think some may argue that the 
wonderful choice my daughter has to stay home with her two 
little children is not a choice that is offered to those poor 
women.
    Do you feel that we are always talking about a choice to be 
home?
    Ms. Stolba. Well, we are talking about choice; but we're 
also talking about, as adults, taking responsibility for our 
choices, and that is the issue in the welfare debate.
    I would add that the arguments that are made, often 
invoking single mothers, particularly ones that have just come 
off the welfare rolls, point to the fact that we are one of the 
last industrialized countries that doesn't have paid leave, 
that doesn't have certain benefits. But if you compare the 
U.S.' economy and women's participation in it to that of 
European countries, you will find their growth rates are much 
lower. Their wage gaps are wider. So even with those benefits, 
it doesn't guarantee that women will have that kind of----
    Ms. Schakowsky. I see Ms. Appelbaum shaking her head. I 
want you to respond to that. But, in addition, would you 
consider adding to your list, when you talk about what 
government can do, we are reauthorizing welfare reform, making 
it--there are even more work requirements and less educational 
opportunities, so this issue of enabling women to diminish the 
wage gap is limited now.
    Could you respond now to Ms. Stolba?
    Ms. Appelbaum. Just very quickly, it's just not true that 
all countries in Europe have less female labor force 
participation. If you take a look at a country like Sweden, of 
course they have the same trajectory as we have in terms of 
female labor force participation. They have a much narrower 
wage gap. They do still have a wage gap, but it's much 
narrower.
    But if you take a look at countries like the Netherlands 
and Germany, which are making a real effort to provide 
opportunities for women, what these two countries have enacted 
is an adjustment-of-hours act which allows any employee, male 
or female, to request a reduction in hours of work, let's say 
from 40 hours to 30 hours, for a fixed period of time, and the 
employer can refuse if there is a business reason to refuse, 
but not otherwise. This has enabled many parents of children to 
share the responsibility of caring for their kids and also to 
remain in the work force, to have the continuity of the work 
experience, to work 30 hours a week and to continue; not to 
have that all or nothing choice, you have to be here or not.
    Each parent can take a day off and stay home with the kids, 
so that children are in daycare, let's say, 3 days a week and 
with a family member the other four, which I think many 
families would find much more possible to manage.
    Mr. Horn. We now yield 5 minutes to Mrs. Maloney for 
questioning.
    Mrs. Maloney. Thank you, Chairman Horn and Ranking Member 
Schakowsky very much for coming here. I have served with Mr. 
Horn on this committee for many years, and he has elected to 
not run for reelection. I think it is a true loss to the 
Congress of the United States. He has been an outstanding 
Member of Congress and one who has cared about many, many 
issues.
    I just have to mention his strong work on Governor's Island 
that I believe helped force the issue, and the giving of the 
island back to the city; all New Yorkers thank you for the 
leadership that you played in that important project. And we 
thank the President of the United States also.
    I do want to thank also Sheldon Silver, the Speaker of the 
Assembly, and State Senator Martin Connor for allowing us to 
use their hearing rooms. We really truly appreciate it.
    One of the reasons that I did this study with Mr. Dingell 
was that there were so many studies that were coming out 
showing women losing ground. Not only is the White House 
Project that--we have Ms. Wilson here today from that one--but 
the Catalyst, the Annenberg Report that in telecommunications 
and in media jobs women hold only 3 percent of so-called 
``clout positions,'' one from the scientific community stating 
that women were paid a third of what male scientists were paid. 
And we wanted to take a broader look.
    With the great work and cooperation of the nonpartisan, 
independent GAO, we looked at 10 industries that employed--not, 
Ms. Stolba, a small snapshot--but 71 percent of the women in 
the work force and 73 percent of women in management. So it was 
a broad view. We used census data. And therefore it was not an 
academic study in that we generated the questions.
    We certainly want to go back and look at qualifications and 
other items that you mentioned, but we were using the data that 
were available to us.
    I continue to hear about more reports. Ms. Mello came up 
with her report, and again it is showing that women are not 
doing so well. When you say that this is a woman's choice to go 
out and start her own business, when I talk to women who go out 
and start their own business--and the Small Business Bureau 
shows that the great growth in small businesses is all women-
generated--they will say because they couldn't stand it. They 
ran into a glass ceiling and they couldn't go any further, so 
why continue, in their view, in being discriminated against?
    I want to mention that I have started a Web site, 
www.equality2020.org, and I'd like to put information up on 
this Web site of other reports. Ms. Mello, you cited yours. I 
don't have that; I would like a copy of it.
    But I would also like to have Ms. Stolba, for the record, 
the public policy foundation report that you mentioned; and I'd 
like to ask the panelists, all of them, to respond. And you, 
yourself, to the statement that you made that this particular 
study found that single women who have never married, live 
alone and have full-time jobs earn more than their male 
equivalents.
    You know, as a mother of two, and a very strong proponent 
for children and families, in my view, if a woman has to be 
single and childless to have parity with men, the majority of 
whom who are married and have children, then this simply is not 
parity.
    So first, Ms. Stolba, how do you respond?
    And how do you, Ms. Appelbaum, Mr. Robertson, and Ms. 
Mello?
    Ms. Stolba. Well, I would say that the point of citing that 
study was to show that we do have equal opportunity. That is 
not to say--first of all, we are talking about cultural 
differences here as well. When woman have children, they tend 
to be the ones, on average, to choose to spend more time out of 
the work force than men do.
    Now, you might not think that's a legitimate choice, 
because it's hampering women from advancing. But I would argue 
that's their choice. That's a personal family choice that women 
make.
    Men make that choice as well. I know many young men these 
days who are taking parental leave to spend time with their 
children, taking a year's sabbatical to be with a newborn. And 
that is just as legitimate, and they won't advance as quickly.
    I do think there are flexible, nongovernmental ways to 
address some of these issues--for example, in academia stopping 
the tenure clock for men or women who want to take a year or 
two off to be with their children; in law firms to have a 
partnership track where the partnership track time is slowed 
for men or women who want to take that time off.
    In certain businesses, however, the demands of being a 
corporate CEO, for example, don't allow for as much 
flexibility; and most corporations are pyramid shaped. Most 
people don't get to the top, and if you want to get to the top, 
you do make sacrifices. I think I am just trying to point out 
here, not in a Pollyanna-ish way, that there is not 
discrimination, but you make tradeoffs in life. And women, on 
average, have tended to make different tradeoffs than men. That 
doesn't mean they don't have equal opportunity.
    Mrs. Maloney. Could you respond, Ms. Appelbaum? Ms. Mello. 
Mr. Robertson.
    Ms. Appelbaum. I would just say that women are making the 
best choices they can, given the rotten situation that they 
face. And in that sense, that is certainly true.
    I agree with you that if what we have to do, that in order 
to have equality or even earn more--because as we all know, 
employers look askance at men who are single, live alone, have 
no children, and were never married. These are not considered 
good employees if they are male, only if they are female.
    And we also know from the data-Ms. Stolba can verify it--
that men with children earn more than men without children, 
everything else being equal, whereas women with children earn 
less.
    I think it is about opportunity and I think it is about 
choice. The question is how do we provide women with the same 
opportunities? What has to happen so that the choices they make 
reflect their own preferences? Otherwise, I will tell you that 
the problem is not going to be that women don't work and that 
women don't earn enough.
    The problem is that women don't have children in large 
enough numbers to replace the population. Japan already faces 
this; they have a shrinking population. Italy already faces 
this; they have a severely shrinking population--Germany to a 
lesser extent.
    The United States would be in the same shape as Germany if 
it were not for the fact that we have such a large immigrant 
population. First-generation women continue to have large 
families; otherwise, we would also be below replacement in 
terms of children. If we don't make it possible for people to 
combine a career and a family, we are going to face serious 
problems, a waste of human resources as women drop out of the 
work force or as they take part-time jobs that are way below 
their qualifications.
    One of the things we know about part-time employment in 
this country is that half the jobs that are part-time are found 
in 10 low-wage industry occupation classifications. So if you 
decide that you want to cut back on your hours, in general, in 
this country, you cannot cut back on your hours as a 
professional woman in your current job. You must quit your 
current employer and take a job in retail. And sure, you will 
be paid the same as a man in retail trade, but you will not be 
paid the same as a person with your qualifications and you will 
not be contributing to this economy everything that you are 
capable of contributing.
    What we need, I think--it was put out by Ms. Stolba: There 
is a view in this country that longer hours equals more 
productivity. Longer hours equals more managers who don't know 
how to manage. They manage by face time. You spend your time--
long hours in a law firm, long hours in a consulting firm, long 
hours in a corporate headquarters, and then your manager knows 
you are a hard worker.
    It takes a lot more to manage by results than it does to 
manage by face time. And here is what we have found in those 
companies that manage by results--because, in fact, what I 
study as a researcher is what goes on inside of companies. 
Those companies--and there are many in the United States, that 
do offer flexibility, that do give people flexible work 
arrangements--find that the first thing they have to do is 
educate their frontline managers, supervisors and line managers 
to judge by the quality of the work. What is it this person was 
supposed to accomplish and did they accomplish it; not, were 
they here 60 hours doing 30 hours' worth of work?
    So there are a lot of changes that have to be made. I 
think, if we get to flexible work arrangements, we will also 
get to much better management and better use of our human 
resources; and we will have much greater opportunities for 
women, as well as for men, to adjust their work lives so that 
they can also have careers, be good employees; and do a good 
job as parents, and as children responsible for the care of 
their family members.
    Mrs. Maloney. Ms. Mello? Could she have a chance to 
respond? Because I think this is an important question, and I 
will give my other time back. I just wonder how the other 
people respond to it.
    Ms. Mello. I would like to say that, as we have heard 
today, there is still a lot of discussion and argument around 
the statistics; and I must say that I think this whole issue 
has suffered from the fact that the information that we have 
had has been fragmented and anecdotal in many ways.
    The Committee of 200, a group that has been around for 20 
years, these are top women CEOs in the country who have gone 
through this process in the last 20 years. One thing, when we 
came up to do this index, was to create a big picture, to 
really kind of create a combined, average global feel for where 
we really stand and to create an index that can be published 
every year so we can create a benchmark and start tracking it. 
It is a clout issue. It is a combination of 10 weighted average 
indexes all the way from the sublime to the ridiculous--why 
aren't we head of charity fundraiser balls, but that is 
significant when you get into it.
    The bottom-line is to try to reduce the rhetoric and get 
down to specific measures that we can refer to, the purpose of 
that being really to begin a conversation about these issues so 
that people become more aware of the fact that we are not 
sitting in this valuable time arguing one statistic against 
another, but we have a standard that we can refer to; and from 
that basis, to make that information available to people who 
are decisionmakers both in government and the private sector.
    It will also highlight, for those of us who care about this 
issue, when it is time to celebrate. I can remember when pay 
parity was, you know, a lot lower; and so I am delighted that 
it is getting up there, whether it is 100 percent or 7.8 or 
whatever.
    I do think that these are opportunities, and I second think 
it is important to segment where we have concerns and where we 
need to focus our attention and understand these issues 
associated with hindrances to our success.
    There is a lot of discussion about the need for parity and 
the need for diversity in the private sector, which is my 
sector, and I am sure in the government as well. There is very 
little done in terms of trying to help people who are in a 
position to make a difference know how to go about doing it, 
how to make these changes happen.
    And I have spent a lot of time with our corporate sponsors 
and organizations talking to them about what they are doing 
internally to make this happen. And guess what? The reason 
isn't only because it is the right thing to do or that they are 
going to get their hands slapped, but they are looking at a 
marketplace where--you know the statistics better than I do--
but at least 70 percent, in the next 10 years, of their 
marketplace is not going to represent white males and they 
don't have a clue about what their market is.
    So, from the standpoint of business in the private sector, 
they are really beginning to get into these issues. The bigger 
they are, the harder they are going to fall if they don't start 
getting with it.
    So we are trying to create an index that people can get a 
handhold, and from there start conversations and start 
evolving. I agree with Ms. Stolba that the private sector needs 
to move on taking these initiatives, with the support of the 
government as well, because the cost to society is too huge. I 
mean, ultimately, the bottom line--and this is a personal 
feeling--is that if we don't begin to kind of make this an 
easier pathway, we are going to lose the most important 50 
percent of our society, where we are going to have our national 
leadership. We need good leaders in our country, whether it is 
private sector, not-for-profit, government, or whatever; and if 
they are hindered because they have to send their kids to 
school or whatever, and society is not helping them with 
raising their children, then that is a cost to society and, God 
knows, we'll have lots of problems.
    So it is really the loss of leadership opportunity, and 
second, it is the responsibility for raising our young 
children. It is not just mothers, it is not even just mothers 
and fathers; but it is society's responsibility. And you know 
the statistics, again, better than I do; but I would have to 
say that we as a society have not gotten serious about dealing 
with these educational issues and support structures for our 
society.
    So, anyway, I think that's where I would come down. I am 
less interested in arguing whether the statistics are here or 
there. I would like to get a generally accepted standard by 
which to measure on an annual basis. We would like to get a lot 
of publicity and vision on this so that people can start 
referring to it.
    It is like the Dow Jones in the private sector. If you look 
at the C200 Index, you can get a feeling for how we're doing. 
That is not to say that we are good, we're bad, we're 
indifferent, but we know where we stand.
    So I hope this will be a contribution to this discussion, 
and I hope that people will take a good look at the index. It 
is a very easy read, and I think it is a very important piece 
of work. Thank you.
    Mr. Horn. I am going to yield myself 8 minutes, which is 
less than our colleagues have said here.
    I want to ask Mr. Robertson: Your report indicates that in 
most industries women managers were less educated, younger, 
less likely to be married, or more likely to be part-time. How 
important are those factors in explaining the pay disparity you 
found during your study?
    Mr. Robertson. They're very important. What we do in the 
last part of our analysis, the regression analysis, is say, OK, 
after you control for each of those, what are the differences 
in salaries? And we found, despite controlling for those 
variances, there are still differences in salaries.
    And, of course, I think basically the value of our study is 
that we have, in essence, maybe not answered the question of 
whether there is a glass ceiling or isn't there? We have 
provided some perspectives that bracket that answer. Basically 
after controlling for some of these variables, that you would 
expect to create salary differences there are still some salary 
differences. Now that could be explained by some other factors 
that we did not have access to and could not incorporate in our 
model, such as job experience. We have at least bracketed down 
somewhat the answer to the question we were asked originally.
    Mr. Horn. Ms. Stolba, you made some interesting 
observations about the choices women must make in attempting to 
balance family obligations and employment opportunities.
    Do you see any trends that indicate that young women are 
aware of the consequences of their choices and are opting for 
career advancement rather than family responsibilities?
    Ms. Stolba. Absolutely. I think it starts at the level of 
education and having seen various types of polling data of 
college-age women in the last year, last 2 years, what you find 
is that when you poll them, they expect to have a career.
    And when you ask them, well, what about your long-term life 
span? How do you foresee your work life? What do you see it 
looking like? And there is where I think they are delightfully 
pragmatic, because most of those who say that they want to have 
children--and not all say that they want to have children, but 
most do; and those who do, say, well, when I have very young 
children, when I have children who are under the age of 5, I 
will probably cut back on my work life. Or alternatively they 
will go into fields where they feel they will have more 
flexibility, whether that be the capability of telecommuting 
and working from home; and so, keeping up a certain level of 
work or not.
    I think that is a very good sign of--these are the 
granddaughters of the sexual revolution; these are the young 
women who have watched their mothers and grandmothers go 
through this struggle, and I think they are making very 
intelligent and pragmatic choices about it. And I think they 
assume that they will go back into the work force full-time 
once their kids are in school.
    Mr. Horn. Dr. Appelbaum, in your testimony you discuss the 
need for greater flexibility and control over their work 
schedules, such as job sharing, shorter work weeks, as well as 
the need for publicly financed family and medical leaves.
    Wouldn't that widen the gender pay gap rather than close 
it?
    Ms. Appelbaum. No, I don't think it would. What it would do 
is enable people to continue to have a continuous work 
experience.
    What I think has to happen, however--I think one of the 
most critical things that the Congress can do for working women 
and their families is to close that loophole that allows people 
to be paid less on an hourly basis when they work part-time 
than they are when they work full-time--with the employer, of 
course, deciding what is a full-time job and a part-time job.
    We had that egregious example, I think you probably all 
remember, from UPS in which part-time workers were working 35 
hours a week and full-time workers were working 40 hours a 
week, and since you are allowed to pay part-time workers less, 
the pay for part-time employees was substantially below the pay 
for full-time employees. I think we need to eliminate that. I 
think that will enable men, as well as women, to reduce their 
hours of work.
    Today, if you reduce your hours of work, you open yourself 
up to the possibility of far lower pay than a full-time worker 
gets. If your family desperately needs that money, you may 
leave your full-time job and take a low-paying part-time job 
just so you can contribute. If your family can afford it, you 
may leave the work force altogether. It is certainly not worth 
it to you as a lawyer, for example, to take a job as a part-
time clerk in a WalMart or something like that. This situation 
leads to that break in work experience.
    I think that what people are looking for, what women are 
looking for, what men are looking for, are greater 
opportunities to combine a career and a family and to be 
successful in both.
    Mr. Horn. You said there are a number of large corporations 
in this country that give women sufficient flexibility in their 
work schedule. Could you give us some examples?
    Ms. Appelbaum. Yes, of companies that give employees 
sufficient flexibility, because flexibility is not just an 
issue for women. And I think it would be a mistake for a 
company to have a policy to say, this is only available to 
women or only available to people with children.
    Men also have responsibilities. Sometimes all they want to 
do is finish up their degree; they would like a shorter work 
week to go to school--if they are young, or they are taking 
care of parents if they're old and so on.
    But Bristol Myers Squibb is a company that immediately 
comes to mind, which introduced a range of flexibility options 
in its payroll department. It allowed for work sharing, it 
allowed for part-time work, and allowed for compressed work 
weeks. And prior to this initiative, this department clocked a 
lot of overtime because you needed to have people in the 
payroll department to deal with questions early in the day, 
late in the day and so on. But with the compressed work week 
they were able to cover the early hours and the late hours 
without overtime; and with job sharing, they were able to fill 
in where, with compressed work weeks, there are some days that 
are not covered.
    They found that in their payroll department they were then 
able to offer the flexibility that the employees wanted and 
have considerable savings in that they no longer have to pay 
overtime.
    The company that allows employees, male or female, to 
reduce their work hours to 30 hours a week is Morningstar, 
another pretty famous company.
    Mr. Horn. Along that line where people can work in the 
home, we had a full committee hearing. We also have had various 
Appropriations--Frank Wolf, for example, has been a real leader 
in this; Connie Morella has been a leader in this.
    Ms. Appelbaum. That is another option that I think is very 
helpful.
    Mr. Horn. What I learned out of that, and it came up once 
here, is the nervousness of the lower management saying, what 
is left for me when everybody is at home?
    Ms. Appelbaum. That is exactly right. And for that, we have 
to emphasize training for lower-level managers so that, in 
fact, they learn how to supervise the work that is being done 
and not simply observe the worker.
    Thank you, I think that's very good.
    Mr. Horn. I yield 5 minutes to the ranking member, Mrs. 
Schakowsky.
    Ms. Schakowsky. Thank you. I wanted to take a personal 
privilege just to thank the Committee of 200, which is located 
in Chicago, for this incredibly important report. And I hope 
that your aspirations are true that it does become the kind of 
Dow Jones that we can go back to year after year.
    Ms. Stolba, you made a statement again that sort of got me 
going here. ``Delightfully pragmatic decisions made by women,'' 
young women. And I wondered, among other things, if as 
delightfully pragmatic decisions were being made by young men, 
that they might like to put some time into and investment into 
the home--and let me say, my premise being that these 
delightfully pragmatic decisions are based on a stagnant notion 
of what the workplace is about.
    Women are practical and do make decisions based on 
realities. But I guess our intention here is to go beyond the 
current realities. Is this the best reality for America, for 
its children, for its families, for its economy, as Ms. Mello 
pointed out?
    So I wanted to ask you about young men, and then to say, 
don't we want to think outside the box here?
    Ms. Stolba. I agree we do want to think outside the box, 
and I do agree with Dr. Appelbaum on a number of things that 
she just raised in her last answer.
    The polling data do show that young men have more of an 
interest in things such as flexible work arrangements than the 
generation previous. And I'll just cite a personal example of 
my own brother-in-law and sister who are both architects and 
who crafted a flexible work arrangement with their employer 
when my niece was born so they both were working three-quarter 
time--actually, I guess, half-time, but since in architecture 
you do need a lot of face time in the office, they worked out 
an arrangement where they were coparenting in fact.
    And I think there is one point at which the Federal 
Government could help us think outside the box on this, and 
that would be to amend the Fair Labor Standards Act to allow 
for things such as COMP time and FLEX time. COMP time and FLEX 
time are the top two demands of younger workers these days 
because they want more control over their work hours.
    It is not that they want to work less, it is not that they 
have notions of wanting to climb the corporate ladder in an 
old-fashioned boys club, maybe the way their parents did. They 
want to have a feeling of more control over their schedules, 
and they are also much more technologically savvy about it, and 
understand that there is a lot of their work they can do from 
home.
    So I think encouraging businesses--freeing up, first of 
all, the old Federal regulations that prevent businesses from 
allowing flexible arrangements such as COMP time and FLEX time 
are one good way of doing this. And when we start talking 
about, isn't it unfair that women have to make the pragmatic 
choices and men don't, then we're starting to talk about social 
and cultural norm shifting. And these are seismic changes, and 
I think we should be careful about trying to legislate them. 
They are happening of their own volition.
    You should continue to encourage equal opportunity and 
uphold the antidiscrimination legislation that we have. But 
when we start trying to talk about how do we get more men to 
change more diapers, then I think we are in a realm that is 
really not the Federal Government's realm.
    Ms. Schakowsky. On the other hand, advocates who want to 
seek parity, who want to create more equality should not then 
characterize those choices as ``delightful'' necessarily. Maybe 
necessary, but not necessarily the best outcome.
    Ms. Stolba. I am describing their own descriptions of those 
choices. And, again, I think the other thing to raise is that 
we're all talking about child rearing and parenting as if it is 
some burden to success in the workplace. I don't think most 
people see it that way. We should get back to talking about 
balance, because people take both of those roles seriously, and 
obviously parenting much more seriously.
    So, again, I don't like the tone of saying that this is an 
obstacle that women have to overcome and, in order to overcome 
that, we need Federal regulations and more men changing 
diapers. So there is a tone shift that I think needs to happen, 
which would also, I think, cool people's jets in terms of 
overheated rhetoric that quickly comes into play in these 
debates.
    Ms. Appelbaum. I would just like to object to the idea that 
we need to change the Fair Labor Standards Act to allow for 
COMP time and FLEX time. There are numerous opportunities for 
flexible schedules within the Fair Labor Standards Act as it 
now exists. People who would be more affected if we changed the 
Fair Labor Standards Act are not Ms. Stolba's architect brother 
and sister-in-law--or the other way around, whatever it was. 
They already have whatever they want--employers can give them 
whatever they want in terms of COMP time. They are not covered 
by the Fair Labor Standards Act.
    The people who are covered by the Fair Labor Standards Act 
are those women working at Wal-Mart, working as waitresses, 
working in hourly paid jobs who have no supervisory, no 
managerial, no independent decisionmaking capacity whatsoever. 
Otherwise, they would be exempt and they wouldn't be affected 
at all.
    For those women, pay is very low. And if they do work 
overtime, which--few of them have that opportunity, but if they 
do work overtime, they depend on that time-and-a-half pay to 
pay their bills, to buy clothing, food, whatever for their 
children. So it's, I think, unreasonable to ask that they give 
up that extra pay.
    And the overtime provisions of the Fair Labor Standards Act 
are the only thing that we have that prevents employers from 
working employees as many hours as they want, because we do not 
have a maximum-hours work law in this country. All of Western 
Europe, as you may or may not know, is subject to a maximum-
hours-of-work law. You cannot require an employee to work more 
than 48 hours a week in all of Western Europe.
    And we do not have such a provision; in this country, you 
can be fired for refusing overtime. So the only limit on the 
employer's ability to ask you to work however many hours in the 
week is the fact that they have to pay premium pay, and that 
does tend to moderate what employers would do. So I think we 
need to keep that in mind.
    If you want to think outside the box, you want to think 
about amending the Fair Labor Standards Act, I'd have a 
proposal. And that is that we go to an 8-hour day and a 36-hour 
week so that, for example, people would work 5 days 1 week and 
4 days the next; it would average out to 36 hours a week. 
Employers could handle it because, with the 8-hour day, it 
doesn't change their shift arrangements, and it gives every 
full-time employee one earned paid day off every other week. I 
think that would go a long way toward helping working families.
    They would have that day every other week in which they 
could schedule doctors' appointments, meetings with teachers; 
you name it, they could take care of it. They could go to 
banks, do their shopping, when they don't have to have their 
kids in tow.
    I think of all the ways in which this would relieve the 
stress on working families. If you really want to change the 
Fair Labor Standards Act, that is what I would propose.
    Ms. Schakowsky. Thank you.
    I just wanted to say that I think it would be unfortunate 
if the effort to create parity in the work force by women is 
characterized, then, as a rejection of the notion that women 
embrace child raising in a really positive way. So when talking 
about cooling rhetoric, I want to caution you about that.
    All of the evidence is there that women do, in fact, 
embrace child raising. The only issue is, does the workplace 
accommodate that in a way that is compatible with the realities 
of our society and the desires of women to make those choices.
    Let me just read one statement, one conclusion, that I 
think also contests some of the criticisms that you had, Ms. 
Stolba, of the Maloney-Dingell report. ``In both 1995 and 
2000,'' controlling for differences in ``education, age, 
marital status and race, full-time''--so that's part-time 
versus full-time--``female managers in each of the 10 
industries earned less than'' full-time male managers. And 
whenever we control as much as we can for all the factors, we 
still find that the wage gap exists. Thank you.
    Mr. Horn. Five minutes for Ms. Maloney.
    Mrs. Maloney. Following-up on Jan's question, even if 
females have less education, and even if they have less 
experience, which we did not control for because we did not 
have the data in the census, but they are still doing the same 
job as their male counterparts, shouldn't they get the same 
amount of money?
    That is basically what your report showed, Mr. Robertson, 
that in all these areas they were doing basically the same job, 
yet getting less money.
    I wanted to ask Ms. Stolba, your comment that you don't 
believe--you said it is a misleading term, indicating that you 
don't believe it is there. But how do you explain a 1998 study, 
done by Harvard University and the Washington Post, which 
stated that 43 percent of men polled believed that a major 
reason why women don't move to management positions is simply 
because and purely because men don't want them to?
    Does anyone want to comment on that besides Ms. Stolba?
    You first, but anyone else too. I was just using your words 
but it is a question to the whole panel. But you can start 
first.
    Ms. Stolba. I would certainly not deny that, again, there 
are cultural norms that still exist in a lot of these big 
corporations that we need to change. But I would caution, when 
we talk about attitudes, first of all, this is not the same as 
gathering statistics and hard data. These are opinion surveys 
which are ambiguous at best and difficult to base strict 
factual conclusions on.
    The reason I challenge the ``glass ceiling'' phrase is that 
I think it is deliberately misleading. It is not an argument 
that there is no discrimination, that we don't need the 
protections of antidiscrimination legislation. But people's 
choices matter also, and choices have consequences inside the 
workplace, outside the workplace; and those choices start very 
early. It is a matter of what you choose to get an education 
in, the kind of job you choose to go into, how hard you want to 
work.
    Mrs. Maloney. But I don't think women choose to get paid 
less, which is what this report showed.
    Ms. Stolba. This report, with all due respect, does not 
consider what academic economists consider one of the most 
important factors in terms of wage and compensation--
consecutive years of work experience. That is a very important 
factor. And if, even holding these factors constant, there is 
still a gap, that might be caused by discrimination. Perhaps.
    But I am just arguing that the broader claims about 
societal discrimination in the workplace that are being made 
here today, based on this report, are overly broad. They're 
not--the evidence that was gathered can't hold up those kind of 
broad conclusions.
    Mrs. Maloney. But even if a woman took 10 years off to 
raise children, which is the average that they take off, the 
numbers are astonishing.
    Quite frankly, I was absolutely stunned that during 1995 to 
2000, when we had great prosperity in this country, women 
slipped--we did not spread the wealth, the disparity grew--and 
I am concerned that now we're going into, and are, in a 
recession, what these numbers are going to mean for women.
    Ms. Mello.
    Ms. Mello. Just a comment on that. I think the women who do 
make the choice to become the CEOs, that do make those choices 
and sacrifices and accommodations within their lifestyle are 
still not making it, OK? You look at the compilation of the 
figures that we gave you; the women in our organization are the 
leading CEOs in this country, and let me tell you, we are a 
small bunch.
    Back 20 years ago, we couldn't find 200 of us. And today 
they represent--it's still negligible, the women that have made 
those choices, the sacrifices, have the education, have the 
commitment, have the drive, have the leadership capabilities, 
the numbers are negligible in terms of who they are on the 
corporate Fortune 500 or 1000, even.
    Mrs. Maloney. To add to your comments, many women have told 
me that they consciously made the choice not to have children 
because the society could not support them with adequate 
daycare, and they are very bitter now because they did not get 
the job and they did not get children. And I think--why don't 
we have any women's charity chairs? Why would you say?
    Ms. Mello. The reason they don't is they are not viewed as 
having the power and the influence and the ability to draw in 
the money. They don't have the contacts. They don't sit on the 
corporate boards. They can't draw in their favors in the same 
way that men do because they don't have the platform.
    Mrs. Maloney. I've just got to say, anyone who says there 
isn't a glass ceiling or discrimination, I think you are living 
on another planet. Just yesterday, I had a staff member come to 
me who is in school, an intern in my office. And her supervisor 
was sexually harassing her, giving her all kinds of trouble in 
a major university. The response of the university is, don't 
bother us, go into court.
    Now how in the world is a kid going to go into court with 
no money and what kind of message does that send to our young 
people? That people don't support them when they feel that they 
have been wronged in whatever way.
    And to sit there and to say, it is not a problem, when you 
have Ms. Mello's report, Ms. Appelbaum's report, Mr. 
Robertson's report, the Harvard report, all of these reports 
coming out. It could say that maybe it's 1 or 2 percentage 
points off, but it is not 26 cents off. It is not whatever 
adjustment for whatever factor was not there. Granted, we used 
existing data; to generate our own, it would have been far more 
expensive. We used the data that every researcher in the 
country uses, the Census Bureau data. But to say that it is not 
a problem, I think you are an ostrich with your head in the 
sand.
    And I just want to thank all the panel. We have other 
panelists coming, but if you would like to respond to any 
point, to some of the points that we have been making--Mrs. 
Appelbaum, you had your hand up.
    Ms. Appelbaum. I wanted to respond to this question of 
continuous work experience and your point of the widening gap 
after 1995. There is no evidence that women worked less in the 
second half of the 1990's than they worked in the first half of 
the 1990's. If anything, every statistic showed increasing 
labor force participation, increasing continuity, increasing 
education, increasing preparation for high-level jobs as 
professionals or managers.
    So the explanation for the widening gap that you found, 
whether the widening gap would be narrowed a few percentage 
points, as you pointed out, if you add education in, but the 
fact that it is widening speaks against this idea.
    I would like to put in the record, because I would like to 
find it, the studies that have continuous years of work 
experience in them. Most have only years of work experience, 
and I don't know exactly where the data on continuous years of 
work experience comes from.
    Mr. Horn. Without objection, your exhibit will be put in 
the record at this point.
    [Note.--The information referred to may be found in 
subcommittee files.]
    Mrs. Maloney. Thank you very much, Mr. Horn.
    And to followup with Mrs. Appelbaum quickly, men take time 
off. They take time off to go into the service. They often take 
time off with midlife crisis, to study or whatever, or just 
because they want to take some time off. And then they go back 
into the work force, and they don't fall behind dramatically. I 
think that is another point.
    Again, I think a lot of these studies bring more questions 
than answers, that we need to look at. But men take time off, 
sometimes substantial time off. Many people go into government 
to work at great personal loss of income to help the country, 
and then they go back and they are not penalized in their 
careers.
    Is there any comment on that? It seems like the women take 
time off and, baby, you can't get back in. The man takes time 
off, you are a hero. You went and did something great for your 
country. You served government, not the private sector, but 
government. You served in the military. You did a great job.
    But women take time off, and it is like, forget your 
career, we want you to be on the factory floor.
    Would somebody like to comment on that? I think it is a 
noble thing to take time off to raise children. It is an 
important contribution to the country, one that should be 
valued, one that brings back understanding that could help the 
work force, I would say and argue.
    My time is up. Thank you, Mr. Horn. As always, you are a 
generous, wonderful gentleman.
    Mr. Horn. I know. You are so right. It is a real lovefest 
here.
    Mr. Robertson, you have heard a lot of discourse. What do 
you want to say about that?
    Mr. Robertson. Thank you. Thank you for the opportunity.
    Many of the questions that have been raised this morning go 
obviously way beyond the scope of the work that we did. But 
just making a couple of observations, to me--we have experts 
sitting here to my left and some out in the audience--the 
questions raised just show how very, very complex the issues 
are. And I would like to go back to something Ms. Mello said 
earlier on in the conversation, which I think was very 
important and, I hope, wouldn't get lost.
    She said something to the effect--and this is not a direct 
quote--there are a lot of statistics going to be thrown around, 
and different people can interpret the same statistics a 
different way. And I think where she is coming from in terms of 
if there can be some agreement, how to interpret certain 
statistics or what statistics we should be using, I think that 
would go a long way to help everybody talk a common language. 
And this committee, the subcommittee, is doing exactly the 
right thing bringing different views together, because this is 
an important public issue. And out of that, hopefully some of 
this common language will come about and we will make progress.
    Mrs. Maloney. I think GAO is just the body to do it in.
    Point of personal privilege, Mr. Horn. Could I introduce a 
distinguished guest, Bill Perkins, who is with us, the deputy 
majority leader of the city council from the Ninth District, 
representing Harlem and the Upper West Side, who has a great 
interest in this and who has come to join us.
    Thank you for being here, Mr. Perkins.
    Mr. Perkins. It is my pleasure.
    Mr. Horn. Welcome.
    Mr. Perkins. Thank you.
    Mr. Horn. Dr. Appelbaum mentioned an idea of the 8-hour day 
bill. I'd like to know from the rest of you what your thinking 
is, if there are any policies that are currently on the books 
that ought to be different. And I'd just like to go down: Did 
the GAO have any thoughts on any changes in the law, labor 
laws, one way or the other?
    Mr. Robertson. No. That is beyond the scope of our work.
    Mr. Horn. Anything?
    Ms. Appelbaum. The Equal Pay Act needs to be amended so 
that we don't discriminate against part-time workers. I'd like 
to see the 36-hour week. I know it's a long way off, but I have 
a lot of ideas around that one.
    I'd like to see paid family and medical leave. I do not 
think that employers should have to pay, because I think that 
would end up putting an undue burden on employers, depending on 
the age distribution of their work force. But I think we need 
something along the lines of unemployment insurance that would 
allow for paid family and medical leave.
    Mr. Horn. Ms. Stolba.
    Ms. Stolba. I am a big fan, again, of amending the Fair 
Labor Standards Act to allow for FLEX time and COMP time, 
mainly because these low-wage workers, when polled, say they 
would love to exchange overtime pay for time home with their 
families. So that is something they desire even if they are not 
architects.
    And the other thing I would raise, we need to consider 
economic growth when we're talking about Federal mandates with 
regard to 36-hour work weeks or federally mandated, paid leave. 
These things cost money, and one of the enviable things about 
the American economy has been its incredible growth; and if we 
start issuing new mandates, that growth could be threatened. So 
I think that is just something that we need to consider when we 
look at these kinds of policies.
    Ms. Mello. Well, my focus has been a little different. I 
would love to see the 8-hour day, having come from a 12-hour 
day and a 14-hour day in my career. But keeping that aside in 
terms of the whole work force moving in the direction of 
parity, that would create opportunity for society to be more 
supportive of the issues of education and supporting children 
and leadership within our organizations, would be--to the 
extent that is supportive of that, I would definitely feel that 
would be recommended for your consideration.
    Mr. Horn. Thank you. And do we have any more questions 
here? Because we need to go to the next panel.
    Mrs. Maloney. No. Thank you all. You have all given us a 
great amount to think about, and we will be in touch with you, 
and certainly working with you in the future on this important 
issue.
    Mr. Horn. Well, if you can stay with us after panel two, 
and you are worried about what they might say, why we would 
welcome any thoughts you would have. This is a dialog.
    But thank you very much for all you have done. These are 
excellent written statements, and I think the question period 
brought out a lot of important information.
    Mr. Perkins. Mr. Chairman, I wonder if I might just take a 
quick question because of a specific concern that I and members 
of the Council have. We are looking at this matter, and we will 
be having our own hearings on this at the end of the month.
    One area of my particular focus is the impact on women of 
color where the problem seems to be even more so. And I am 
wondering if you have any thoughts about that and how that can 
be overcome. Anybody?
    Ms. Stolba. Well, I would just point out that actually the 
wage gap issues, because rates of education among African 
American women, in particular, compared to rates among African 
American men, is higher. They are doing better in the work 
force and they actually have always--they've always worked much 
more so than white women, if you look at the history of women 
in the labor force in America.
    But I do think that there are--race, I know, was factored 
into the equations of this report; and I would cede to Mr. 
Robertson in terms of seeing those impacts. But I would point 
out that educational achievement of African American women is 
actually quite a positive story. So the hope would be, once 
they are in the work force, that they stay in the work force, 
that would be a point.
    Mr. Robertson. Our study didn't look to see the impact of 
race. What it did was basically controlled for race. And so 
from that standpoint, I really can't address the question.
    Ms. Appelbaum. Well, I do think that they're well-known 
leadership problems that affect black women in terms of their 
ability to rise in organizations. If white women run into a 
glass ceiling, I think the effect is equal, if not stronger, 
with respect to black women. They have fewer mentors in the 
workplace, they have few people that they can model themselves 
after. They have fewer people that look out for them and so on. 
So we certainly have that issue.
    And if the comparison is between black women and black men, 
then Ms. Stolba is certainly right. But if the comparison is 
between black women and white men, then there is quite a 
distance left to go.
    Ms. Mello. I can only say that race was not an issue and 
not a focus of our analysis. I can tell you within our 
organization of 441 leading CEOs in the corporate and the 
entrepreneurial sector in this country and in the world, I have 
to say that the African American women, black women, around the 
world are a very small percentage of our organization, which I 
think is representative of leadership positions within our 
country on boards, etc. I mean, we are a good cross-section for 
that. It is nothing we are particularly proud of, but that is 
anecdotally what the statistics would tell you.
    We have a lot of--several outstanding women who are African 
American on our committee, but they are a small percentage to 
the 441. I don't know if that is helpful.
    Mr. Perkins. Thank you. It has been.
    Mr. Horn. Thank you very much. We appreciate your work that 
you have done, and it will be well used.
    So we will now have Panel Two: Ms. Allison Schieffelin, Ms. 
Renuka Chander, Susan Ness and Marie Wilson.
    This is an investigatory subcommittee, so if you would all 
rise and put up your right hand.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that their assistants behind 
them--and we will get their names--and they took the oath also.
    So on Panel Two, we will start with Allison K. Schieffelin, 
former principal of Morgan Stanley.

STATEMENTS OF ALLISON K. SCHIEFFELIN, FORMER PRINCIPAL, MORGAN 
 STANLEY, ACCOMPANIED BY WAYNE OUTTEN, ATTORNEY AT LAW; RENUKA 
 CHANDER, RESEARCH MANAGER, OFFICE OF MEMBERSHIP AND MEETINGS, 
  AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE; SUSAN 
     NESS, ANNENBERG PUBLIC POLICY CENTER, FORMER FEDERAL 
 COMMUNICATIONS COMMISSION COMMISSIONER; AND MARIE C. WILSON, 
               PRESIDENT, THE WHITE HOUSE PROJECT

    Ms. Schieffelin. Thank you very much. Good morning Chairman 
Horn, Ranking Member Schakowsky and Congresswoman Maloney. 
Thank you for inviting me to speak on this important topic. 
Because I am in pending litigation, I'd like to point out that 
there may be questions that I can't answer and I will defer to 
my attorney, Wayne Outten.
    I am not being flippant when I respond with a flat no to 
your query: Are women breaking the glass ceiling? The glass has 
not broken at all, but rather has proven extremely durable and 
harder to see than ever. But I'm not here to present academic 
or scientific proof of gender discrimination because the 
existence of real boundaries to women's advancement have 
already been proven.
    I am here to try and demonstrate why and how, despite our 
better understanding of the problems, discrimination is still a 
substantial impediment to women in the workplace. In fact, I 
cannot imagine, especially after hearing this morning's 
testimony, what more could possibly be needed to prove that the 
glass ceiling exists. Numerous important and independent 
studies have yielded the same conclusions.
    The General Accounting Office report that prompted this 
hearing lays out the data on pay disparity at the highest 
levels of corporate America. The chair of the Equal Employment 
Opportunity Commission, Cari Dominguez, was an author of the 
glass ceiling report and led the Labor Department's glass 
ceiling initiative prior to her appointment to the EEOC just 
last year. As an aside and as an indication of Chair 
Dominguez's conviction about the problem, the very first press 
statement of her administration was here in New York when she 
announced that the EEOC was filing a lawsuit against my former 
employer, Morgan Stanley for pattern and practice 
discrimination against me and other women and for Morgan 
Stanley's subsequent retaliation against me for coming forward. 
I am a coplaintiff in that case.
    Professor Susan Estrich's book, ``Sex and Power'' contains 
a cogent and thorough study of many more studies. She includes 
the scientific work of Dr. Virginia Valian of Hunter College, 
the statistical proofs of discrimination produced by the 
Catalyst organization, and the groundbreaking MIT study which 
documented gender disparities at the highest levels of 
academia.
    In a conclusive and poignant statement, Professor Estrich 
wrote: ``There are lots of reasons that any individual, male or 
female, doesn't reach the top of his or her profession. They 
may lack the skills, the ability, even the luck. They may be 
lousy politicians or not care enough or not want it badly 
enough. But those are traits one would expect to find if it is 
an equal world and a level playing field in both men and women. 
It is true that not all men succeed. But some do. On a 
percentage basis, it's rather stunning. Twenty-five years ago, 
graduating business school classes included 20 to 25 percent 
women. As of 1999, 99.4 percent of the CEOs and 97.3 percent of 
the top earners are men. That is not what a random distribution 
of success looks like by any measure.''
    I believe my case demonstrates what a real glass ceiling 
looks like today. I graduated from the Kellogg Graduate School 
of Management at Northwestern University in 1986 and was 
recruited into the associate MBA training program at Morgan 
Stanley that same year.
    Like many young women coming into the business in those 
years, I had no reason to believe that gender discrimination 
would ever be an issue. After all, I had worked in group 
settings equally with my male peers throughout my academic 
career, had been recruited by a top Wall Street firm, and most 
importantly I had been told that I was part of the ``next 
generation of women.''
    I assumed that my civil rights had already been won, and I 
did not have any personal experience of gender discrimination.
    After a year of training, I took a position in the 
Institutional Equity Division on the trading floor at Morgan 
Stanley. The cat-calling, the pin-up posters and suggestive 
remarks, struck me as typical locker room banter and I thought 
I could be just ``one of the guys.'' I laughed and joked and 
worked like hell. I loved the excitement and the pace of the 
business and I jumped in with both feet.
    Morgan Stanley included me in all of their recruiting 
events for MBAs, and I frequently attended women's events as a 
spokesperson for the firm. I was also invited to participate on 
the gender task force. As an associate, I listened to the 
complaints of more senior women who had hit the glass ceiling, 
woman who were denied promotions and pay commensurate with 
their male colleagues. I heard about women who were pregnant 
and felt they needed to hide their pregnancies until in a bid 
to get extra money at year end. Still I thought that I would be 
impervious to the problems they faced because this was all 
being addressed and remedied and I was that ``next 
generation.''
    In the meantime, my productivity and my responsibilities 
increased. I was doing very well at Morgan Stanley by any 
objective measure.
    I loved my job, and at every stage of my career I made my 
ambitions clear: I wanted to be a managing director at Morgan 
Stanley. Nevertheless, and genuinely surprising to me, the 
glass ceiling inevitably blocked my advancement. I was 
repeatedly passed over for promotion to managing director 
without explanation while many men less qualified with respect 
to tenure, productivity, and overall firm contribution were 
promoted ahead of me.
    In 1998, I reluctantly filed a charge of discrimination 
with the EEOC. At the time I filed my charge of discrimination, 
there were only three female managing directors out of about 50 
in the Institutional Equity Division. They were amongst the 
lowest paid and least powerful managing directors. Two out of 
the three women managing directors were just promoted at the 
end of 1997. Two out of the three women were assigned ``off-
line'' or nonrevenue producing divisions. Each of those women 
had career experience of more than 15 years in a division in 
which a man could achieve managing director in less than 10 
years.
    When I filed my charge of gender discrimination, I never 
anticipated the degree to which I put my career at risk and 
unalterably changed my life. Chair Dominguez put it best when 
she said ``kiss your Wall Street career good bye.''
    The retaliation is far worse than the discrimination. 
Morgan Stanley, with its unlimited resources, feels no risk at 
striking out against an individual woman who speaks up.
    I was methodically stripped of responsibilities and was 
quietly but pervasively maligned. I was finally fired on 
October 24, 2000, for what Morgan Stanley called 
``insubordinate and inappropriate conduct.'' In truth, it was 
the type of conduct that is typical on Wall Street trading 
desks. The reality is that they fired me simply because I had 
the ``audacity'' to speak out about gender discrimination.
    And I'm going to go over 1 minute with your permission, Mr. 
Horn.
    Mr. Horn. Certainly.
    Ms. Schieffelin. Morgan Stanley destroyed my career. They 
destroyed everything I had put my heart and soul into for 
almost 15 years. And the retaliation has had the effect, and I 
believe the intent, not only to punish me, but also to send a 
loud message to women that if they come forward, their careers 
can also be easily destroyed.
    In fact, the law specifically states that complaining about 
gender discrimination is protected activity under Title VII, 
but the time, money spent and risk to my career that has 
accrued over the past 3\1/2\ years since I filed my charge 
plays directly into the hands of Morgan Stanley. I have to 
emphasize the incredible financial burden that accompanies my 
legal battle. I'm not crying poverty. I'm just pointing out 
that the money I earned on Wall Street allows me to bring a 
serious problem to a forum that no average professional, either 
at Morgan Stanley or any company in America, could ever afford. 
When, as in this case, the corporate defendant delays and 
delays a fair resolution, that alone serves to deter even the 
most resolute plaintiffs.
    So I understand that I may not have the profile of your 
typical victim of discrimination, but I am the one that you see 
here today because I can afford to be here. Glass ceiling 
discrimination is everywhere on Wall Street. The high price has 
strengthened my moral conviction that it is my right, and in 
fact my obligation, to seek relief for myself and other women.
    It's obvious to me now why women in high-ranking jobs that 
earn a lot of money are loathe to put it all on the line, even 
though they are very much aware that there is a substantial 
disparity in pay and promotion between men and women. And as 
one of my former colleagues put it, ``women who have made it 
this far and want to stick it out make accommodations in their 
own minds about what they can expect and create justifications 
for the discrimination rather than take action which might 
jeopardize their careers.''
    I am now extremely sympathetic to those fears and I 
understand why so many of the women at Morgan Stanley sought me 
out in the Morgan Stanley ladies room, cafeteria, or nonwork 
setting rather than public setting--I'm just to going to skip 
over some of this and read you my conclusion.
    I know that this case is being closely watched not only by 
other investment banks, but also by other professional 
organizations like law firms and accounting firms. We must win 
this case. And I believe that we will win this case. I believe 
in the power of the law. I believe that the democratic process 
and the dedication of our public officials can overcome even 
the most monied and powerful corporations. I want to thank you 
for any action that you might take for the women who are 
fighting this battle. I don't want another generation of women 
to have to go through this.
    Thank you. I'm sorry for going over.
    [The prepared statement of Ms. Schieffelin follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.060
    
    [GRAPHIC] [TIFF OMITTED] T5484.061
    
    [GRAPHIC] [TIFF OMITTED] T5484.062
    
    [GRAPHIC] [TIFF OMITTED] T5484.063
    
    Mr. Horn. Thank you. Now we have Ms. Renuka Chander, and we 
are glad have you here.
    Ms. Chander. Thank you, Chairman Horn, and good morning to 
the congressional committee.
    I am Renuka Chander and I'm a research manager at the 
American Association for the Advancement of Science. Our 
principal product is Science Magazine, and we conducted a study 
of 19,000 life science members in June 2001. The report that--
the sample that I'm reporting on was 8,692, which is a 46 
response rate. We sent out a fairly long questionnaire asking 
traditional questions on current income, previous year salary, 
total professional income as well as attitudinal questions to 
describe how scientists view their jobs, what motivates 
scientists, and what their future plans might be regarding 
their careers.
    As we all know, there is a gender gap in life scientists' 
salaries. Males earn a median of $94,000, whereas women 
scientists earn a median of $72,000. The findings of this study 
are remarkably close to the studies that have already been done 
in different fields. The difference is explained in part by the 
fact that males are further in their career cycles, have worked 
longer and more of them are in the high-income field of 
medicine. More females also work in academic settings where the 
pay rate is lower and they have had less time in the workplace.
    A gender gap is widest among the top jobs level. Among 
academic administrators where the gap is the largest, 
admittedly our sample had a low number of observations. 
However, for full professors there is a difference of 14 
percent in salary between men and women.
    Similarly in industry, there is a gender gap in the top 
positions. In nonacademic positions, women earn--in senior 
management, women earn 22 percent less than men and among 
physicians, women earn 31 percent less.
    Male directors and managers also earn significantly more 
than their female counterparts, 19 percent and 18 percent, 
respectively.
    There is very clear evidence in this study of some 
systematic male-female differences in pay. For more research-
oriented positions we found that the pay gap was less, but in 
terms of the administrative positions, the pay gap was much 
larger. Only in one job category did we find that women earned 
as much as men if not more, and that is on the job of principal 
investigator. There, the average was $97,000. Men earned 
$95,000 and women earned $97,000 but only in that particular 
job.
    The second point I would like to make is about job 
satisfaction, because we think it is very important. Males are 
more satisfied in their jobs than females. In part, this may be 
related to females being less advanced in their career cycle 
and the fact that they hold lower level jobs, since high-level 
positions have higher job satisfaction.
    We measured specific aspects of job satisfaction and we 
found that males are more satisfied with their job than females 
on many aspects, including some aspects that are very important 
to females. The aspects on which males rate their job as 
statistically significantly better include salary and 
compensation, job security, promotion opportunities, hours 
worked, opportunities for sabbatical, autonomy, opportunities 
for collegial exchange and recognition and prestige.
    Women don't rate their jobs as better on any aspect 
evaluated, and they rate their jobs as significantly worse than 
males on a number of aspects, and on aspects that are important 
to females.
    The third and last point that I'd like to make is about the 
effect of marriage on female scientists' careers as well as 
time taken for personal issues. The career paths of female life 
scientists suffer more from marriage and dual careers than the 
career paths of male life scientists. This is not new, but I am 
giving you the statistics that apply to life scientists. In 
part, this is because female scientists are more likely than 
males to have highly educated working spouses, and a spouse 
that is also a scientist.
    About a third of men, male scientists say that their career 
has been affected by their wife's career. But two-thirds of 
female scientists say that their careers have been affected by 
their spouse's career.
    And the last point has to do with taking time off. Female 
scientists are more likely than their male counterparts to have 
taken 6 months or more as time off work for personal, medical, 
or family reasons. Nearly a fifth of female scientists have 
taken this type of personal leave--about 18 percent--compared 
to only 3 percent of males.
    Now, we found--this is based on questioning of these 
people, males report a higher rate of being accommodated upon 
their return to leave than females. 47 percent of males were 
accommodated; only 30 percent of females were. And maybe this 
is because males return to the same employer more often, 55 
percent, than females, 41 percent.
    That concludes my testimony on this issue, and I thank you 
very much for the opportunity to testify.
    Mr. Horn. Thank you. The evidence you have is going to be 
very helpful.
    [The prepared statement of Ms. Chander follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.064
    
    [GRAPHIC] [TIFF OMITTED] T5484.065
    
    [GRAPHIC] [TIFF OMITTED] T5484.066
    
    Mr. Horn. Our next presenter is the Honorable Susan Ness, 
Annenberg Public Policy Center, former Federal Communications 
Commission Commissioner.
    Ms. Ness. Thank you, Mr. Chairman. And thank you, 
distinguished members of the subcommittee, Congresswoman 
Schakowsky and Congresswoman Maloney, for convening the hearing 
and inviting me to testify today. I am currently a visiting 
professor of communication at the Annenberg School for 
Communications at the University of Pennsylvania, and also 
serve as the director of information and society at the 
Annenberg Public Policy Center.
    The study that I'm going to talk about today: Progress or 
No Room at the Top? The role of women in telecommunications 
broadcast, cable and e-companies, was released last year under 
the direction of Dean Kathleen Jamieson as a result of the 
request that I had made based upon the experience that I had 
during the 7 years that I served as a commissioner at the FCC. 
Basically, during that time, I saw a dearth of women in the top 
echelon positions at communications companies. Indeed, as I 
went from convention to convention, virtually no women were 
there as keynoters or as members of the super panels other than 
government representatives who were women.
    Indeed, as the Annenberg study documents, only 9 percent of 
the board of directors of telecommunications, media and e-
commerce companies are women. Only 13 percent of a total of 757 
executives are women. And more strikingly perhaps, only 3 
percent of those who have achieved the position of executive 
vice president and above are women. Those are positions that 
Catalyst calls ``clout positions.'' Not one of the 25 largest 
media conglomerates listed in Broadcasting and Cable Magazine, 
and that represents hundreds of billions of dollars of revenues 
and enormous clout, not one of them has been headed by a women 
in the 7 years that I served as Commissioner. Not one.
    I would have expected better results to have occurred from 
the e-commerce companies, companies that were established 
subsequent to the resurgence of the women's movement 30 years 
ago. One would expect that they would not have established 
practices that might have been based on outdated views of women 
in business. But, no. The researchers found only 6 of 147 e-
commerce company board members were women, and only 4 percent 
of the executive vice presidents and above were women. These 
are in the e-commerce companies.
    Well, what does this suggest? First of all, it suggests 
that the passage of time alone is not going to be effective in 
increasing the representation of women on boards and in the 
executive suites of communications firms or in any industry for 
that matter. You can go across the board, lawyers, school 
administrators, scientists, you name it, all documenting 
similar results.
    It's also been documented that when companies have a fully 
integrated work force at all levels of the enterprise, these 
companies see improvement in their bottom line. It stands to 
reason, communications companies are seeking to win as many 
consumers and viewers as they possible can. They should not be 
undervaluing the opinions and experiences of 50 percent of the 
population. I believe Ms. Mello made that point on the earlier 
panel as well.
    More importantly, when companies fully integrate family 
friendly policies into their corporate culture, they have a 
happier, more productive work force and they are better able to 
attract and retain not just women, but also family oriented 
men. That has a significant benefit in reducing costs, reducing 
the costs of new hires, new trainees, etc. There are tangible 
benefits to be had for corporations willing to address the 
matter of inclusion of women beyond token members on the board 
of directors or in the top-line executive succession.
    Ironically, in the wake of the Enron debacle, some predict 
that more women will be selected to fill nonexecutive vacancies 
on the boards of corporations. Why? Because women score very 
highly on the credibility and integrity scales, qualities today 
that are very much in demand.
    The Annenberg Report suggests several concrete steps that 
can be taken to increase the number of women. Among them, 
companies should conduct a self assessment to determine whether 
their corporate culture and policies are impeding their ability 
to attract and retain women. These efforts have to be initiated 
from the very top. They should ensure that there are qualified 
women included in any applicant pools for vacancies--and I want 
to underscore that minority women are very important in this 
whole discussion--they need to be in all of the applicant pools 
and any job advancement for managers should be tied to better 
outcomes.
    Mentoring is also vitally important. It should be 
encouraged to steer women along the paths better destined for 
top leadership and not dead-end positions. In filling executive 
or board positions, corporations should engage search firms 
with a track-record of locating qualified women.
    Finally, trade associations should seek out and publicize 
women as keynoters and plenary session panelists.
    Access to capital remains a stumbling block for many female 
entrepreneurs wanting to buy communications companies. Congress 
should consider establishing a viable tax certificate program 
for female and minority first-time purchasers of communications 
firms.
    So in conclusion, women are woefully underrepresented on 
corporate boards and in the executive suits of top 
communications companies. This is not going to change based on 
passage of time alone. You need to have real efforts underway 
to accomplish that. The inclusion of women beyond token numbers 
in boardrooms and at all levels of the enterprise can create 
positive tangible results to the bottom line, but it takes a 
sustained commitment from the top to make this happen. And 
hearings, such as the one you are having today, go a very long 
way by shining the light on this issue and encouraging the 
private sector to do what needs to be done to get there. Thank 
you all very much.
    Mr. Horn. Thank you.
    [The prepared statement of Ms. Ness follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.067
    
    [GRAPHIC] [TIFF OMITTED] T5484.068
    
    [GRAPHIC] [TIFF OMITTED] T5484.069
    
    [GRAPHIC] [TIFF OMITTED] T5484.070
    
    [GRAPHIC] [TIFF OMITTED] T5484.071
    
    [GRAPHIC] [TIFF OMITTED] T5484.072
    
    [GRAPHIC] [TIFF OMITTED] T5484.073
    
    [GRAPHIC] [TIFF OMITTED] T5484.074
    
    [GRAPHIC] [TIFF OMITTED] T5484.075
    
    [GRAPHIC] [TIFF OMITTED] T5484.076
    
    [GRAPHIC] [TIFF OMITTED] T5484.077
    
    [GRAPHIC] [TIFF OMITTED] T5484.078
    
    [GRAPHIC] [TIFF OMITTED] T5484.079
    
    [GRAPHIC] [TIFF OMITTED] T5484.080
    
    [GRAPHIC] [TIFF OMITTED] T5484.081
    
    [GRAPHIC] [TIFF OMITTED] T5484.082
    
    [GRAPHIC] [TIFF OMITTED] T5484.083
    
    Mr. Horn. And we now come to our last presenter in panel 
two. That is Marie C. Wilson, President of the White House 
Project. And you might tell us a little bit about the project.
    Ms. Wilson. Well, the White House--I'm Marie Wilson 
President of the White House Project, a national nonpartisan, 
nonprofit organization dedicated to advancing women's 
leadership by enhancing public perceptions of women's capacity 
to lead and fostering the entry of women in positions of 
leadership, including the U.S. Presidency.
    I've worked on this issue in one way or another for 24 
years and find this fascinating. It's really interesting. I 
continue to work on it in another capacity as president of the 
Ms. Foundation for Women where we work on it all across 
America, across race and class. And this Thursday the Ms. 
Foundation will be celebrating 10 years of Take Our Daughters 
to Work. A third of American adults have participated. So if a 
third of American adults have been that concerned about their 
children, we are right to be here and concerned ourselves.
    Today I want to focus on one thing alone, and that is 
perception. So I am so glad to follow Susan Ness, the 
Commissioner, because perception--having gone at this every way 
that I can think of in 24 years, one of the ways that the White 
House Project has approached most recently is to look at the 
media and to look at what Kathleen Hall Jamieson, the dean of 
Annenberg has instructed me to, how do we normalize this whole 
area of women across race leading in America and how do we 
change the culture so that we change this permanently?
    So I thank you for pulling the data together, Congresswoman 
Maloney, this has been a great help. And all of you who have 
worked on this, Ms. Schakowsky, very much.
    Mrs. Maloney. And like-minded men, Mr. Horn and Mr. 
Dingell.
    Ms. Wilson. I thank you like-minded men, Mr. Horn and Mr. 
Dingell, who is not here and I hated to call attention to that.
    At any rate, I do want to say that we looked at something 
that is a little bit parallel to your studies. In the White 
House study, we were looking at how many women appear on the 
Sunday morning talk shows. Because, like your study, we are 
finding that they are in no way appearing in proportion to 
their representation. Even though they are not in enough 
leadership positions, they are not even appearing in the ones 
in proportion to the ones they are. We called it ``Who's 
Talking'' and we can say with absolute certainty that women are 
neither seen nor heard on Sunday morning talk shows.
    And I want to say a minute's worth on why those shows are 
important. Those shows have an agenda sitting effect in this 
country. That is agreed by communications scholars. They tell 
us what is important. They tell us what is not important. And 
more to the point, they have an authority setting effect. They 
tell us who we should listen to, who the experts are. They tell 
us who should lead, and who will continue to lead and they 
profile leaders every Sunday morning.
    Before I give you the numbers I just want to say something 
about September 11th, because after September 11th, you will 
find that the data really changed on these shows and that's 
when people in our country turned to television and said who do 
we listen to and who did they hear? Well, they didn't hear 
women and they did not hear women in spite of the fact that 
three women Senators chair the three most important 
subcommittees on terrorism in the U.S. Government.
    And I think, particularly in this setting, when it was a 
war that dealt with an incredible position of women in 
Afghanistan, to not hear women's views was outstandingly bad.
    We studied we studied this week, ABC; Face the Nation, CBS; 
Late Edition with Wolf Blitzer, CNN; Fox Sunday News, Fox; and 
Meet the Press, NBC. And of course these have tens of millions 
of viewers. We did not count by the way the interviewers, we 
counted the guest appearances on those shows because that is 
what we are looking at. They are the ones that are to be seen.
    We studied it over a period of 18 months from January 2000 
to July 2001. Just to summarize the findings, men outnumbered 
women 9 to 1. There were 245 repeat guest appearances by male 
U.S. Senators, only eight by female U.S. Senators. You know, if 
they had invited a few back, they could have changed every 
statistic. Women represent only 6 percent of all appearances by 
elected officials. And as you well know, women comprise 14 
percent of the House and 13 percent of the Senate. Women spoke 
fewer words then men by 10 percent--I heard that chuckle--were 
slightly more likely to be less prominent and in the later 
segments of the shows. That did surprise us. And in every 
category of speaker on every topic, women were underrepresented 
according to the pool they represented.
    So after September 11th, men outnumbered women 13 to one in 
the 7 weeks, a drop of almost 40 percent in women's 
representation compared to men. You can see that when it came 
to different issues like war and terrorism, we were not ready 
to look at women.
    The impact of this has something to do and is formidable in 
terms of the priorities of our Nation, whether women were 
setting those priorities and whether women have an opinion to 
give and whether that opinion is important.
    Two things I'd like to add that I think are important. 
First of all, these shows are intimate. Television is an 
intimate thing and when people come into your living room, when 
they are there every Sunday, when they are the leaders, you get 
connected to them. You build constituency if you are on them. 
You get voted for if you are on them. They are not without 
power.
    The second thing, if only when only a few women are on them 
the corollary happens, then you start to say, oh, there are 
only a few women who are competent in America. So tokenism has 
a terrible price here. I'd like to summarize a couple of 
things, and we can talk about them if you are interested. One 
of the things we found, just for an example, is that the former 
heads of the Republican and Democratic Senate campaign 
committees were on the shows 24 times, and 16 times in those 18 
months while the current chair of the Democratic senatorial 
campaign, who is a woman, was never on.
    We have several examples that have to do with intelligence 
after September 11th where they had to reach underneath Senator 
Feinstein to actually bring some men on those shows after 
September 11th. Likewise with Kay Bailey Hutchinson and Nancy 
Pelosi, people who have expertise that was relevant but did not 
get on.
    Again, I just want to say what these do, they bring voice, 
they tell constituents of the women that are sitting up front 
whether your constituencies know that you are there or doing a 
good job. Rosy Galar mentioned that when we brought it to 
Congress.
    The White House study has put light on this. We will 
continue it. We think that we will continue to make women 
visible, of course, as much as possible. But we think the 
political parties need to be promoting the women in those 
parties. We think the talk shows and the producers need to be 
telling the bookers that they need to bring the women in. And 
we are glad that you are continuing to attract people to this 
work and have them hear it because they need to. I want to 
remind you that I think our country thinks it is a fair 
country. They want to believe that things are fair and we have 
this done. But it is far from done and your report will help us 
get there and to be a real democracy.
    I would like to submit my report but I would like to also 
tell people further they can go to www.theWhiteHouseProject.org 
and see it again. I thank you and I look forward to answering 
questions.
    Mr. Horn. Thank you.
    [Note.--The publication entitled, ``The White House 
Project, Who's Talking? An Analysis of Sunday Morning Talk 
Shows,'' can be found in subcommittee files.]
    [The prepared statement of Ms. Wilson follows:]

    [GRAPHIC] [TIFF OMITTED] T5484.084
    
    [GRAPHIC] [TIFF OMITTED] T5484.085
    
    [GRAPHIC] [TIFF OMITTED] T5484.086
    
    [GRAPHIC] [TIFF OMITTED] T5484.087
    
    Mr. Horn. I yield myself 5 minutes to start the 
questioning.
    Ms. Schieffelin, could you describe the scope of your 
responsibilities while you worked in sales and trading at 
Morgan Stanley, and is it a highly competitive job? I know you 
have a problem that you might not want to----
    Ms. Schieffelin. No, I was just giving myself a second to 
think. The incredible growth in the securities industry over 
the last 15 years, in part because of the outrageous bull 
market, has created an incredible demand for young 
professionals, and in fact, young males rose in that time from 
very junior administrative posts to the most senior managing 
director levels in short periods of time.
    That's not to say that there's not a very competitive 
environment for these jobs. All of the business school 
applicants applied to jobs on Wall Street. And in fact, the 
percentages out of every business school out of the last 15 
years that applied to Wall Street versus consulting or product 
management or communications rose because the most profitable 
jobs and the stories and anecdotal evidence of these young Wall 
Street high fliers were tremendous. So there was incredible 
competition.
    My particular job responsibilities were very broad because 
I worked in a very specialized area of the industry called 
convertible securities that involved the sale and trading of 
derivative instruments and complex swaps. It also involved 
working with every department of the Equity Division: in equity 
trading, in options trading, in initial underwritings. We 
raised billions of dollars, particularly for some e-commerce 
companies that I'm sure Morgan Stanley doesn't want to submit 
the research reports to today. But the responsibilities that I 
had were very far-reaching, both with respect to primary 
issuance of securities and day-to-day secondary trading of 
securities, including very complex securities.
    Mr. Horn. How many women held similar positions in Morgan 
Stanley? Were you it? The typical token?
    Ms. Schieffelin. For most of my career, I was the only, or 
one of under three women in the convertible department. But the 
better measure is of the entire institutional equity division. 
And if you look at the entire pool of applicants that you look 
at for men that went through the ranks of promotion, so you are 
looking at associates, vice presidents, principals, and 
managing directors, you will see that there were plenty of 
applicants, but that mysteriously, I guess now predictably, 
since you all know what I'm going to say, that at each 
successive level of pay and promotion, that pool of applicants 
looked less and less like the pool of total applicants.
    So it's not that there is a dearth of women who are 
interested in finance or who have studied finance and, as was 
pointed out earlier, there are plenty of women in my graduating 
glass out of Kellogg and all of our partner business schools. 
There are tons of them. But even though many of my women 
colleagues from Kellogg have achieved great success, I'm 
certain very few achieved that success on Wall Street, not 
because, again, because of lack of interest, but because of 
lack of advancement opportunities on Wall Street.
    Mr. Horn. Have you looked at data on the schools of 
business administration versus the schools of law? As I 
remember, law is now about 50-50. What about the schools of 
business?
    Ms. Schieffelin. When I looked at Ms. Estrich's data in the 
Sex and Power book, she talked about very low percentage, 25 
percent in the 1970's. I believe that my graduating class was 
much closer to 50 percent, and having had the experience 
anecdotally to be conducting employee interviews and super 
Fridays where we invited male and female applicants to come 
into the firm, and having hosted cocktail receptions for MBAs 
and women's dinners, I can tell you that the women applicants 
coming out of the business schools are far more numerous, and 
many more of them--that's such a bad word--than in the 1970's 
have skills and proficiency in math and sciences and the 
quantitative areas, and yet still they don't end up in the line 
positions, rather revenue producing positions. The aggressive, 
trading floor positions--working it out everyday positions that 
the men attain much more easily, even without the advanced 
degrees.
    Mr. Horn. Well, for the other three presenters, based on 
your studies, were you able to determine whether the women have 
lost or gained ground compared to men between 1995 and the year 
2000?
    Ms. Chander. Ours was not a longitudinal study it was just 
a ``one of'' study. So I can't answer that question.
    Ms. Ness. The Annenberg Center is conducting a yearly study 
to update the statistics to be able to answer that question. 
And those results should be out within the next couple of 
weeks.
    Mr. Horn. Ms. Wilson.
    Ms. Wilson. We don't have a longitudinal study either, but 
what I think you can see from our study that would say we have 
gained some ground is that even though there were only a few 
appearances by Condoleezza Rice and Madeleine Albright, the 
fact that we had two women in the area of foreign policy each 
of these women are in is actually progress, but that would be 
the progress that I could document.
    Ms. Chander. May I just--I just remembered something. Our 
entire membership, which is made up of life sciences and all 
the other disciplines, is 80 percent men and 20 percent women. 
Among the life sciences we have some of the younger members, 
the female member percentage is 28 percent, so I guess you 
could call that some kind of progress.
    Mr. Horn. Has science got the data in terms of the various 
science majors in the United States for the Ph.D. which you 
have to have, really, if you're going to be in most research? 
And as I remember in the schools of engineering, chemical 
engineering is almost 80 to 90 percent women and very few men. 
So I'm just curious what people have looked at. It's very easy 
to get that data.
    Ms. Chander. Right. Right.
    Mr. Horn. Maybe science wants to look at that. I don't know 
if they have before.
    Ms. Chander. I know that the American Chemical Society does 
an annual survey, and their statisticians have concluded that 
there is no significant wage gap between men and women. And I 
think I heard a quote about an engineering survey that 
suggested that there was no wage gap. But in our study, 
whichever way you looked at it, there was a significant wage 
gap, even when you held certain factors constant.
    Ms. Schieffelin. Mr. Horn, can I add something? I think you 
are really talking about the pipeline issue. Are there enough 
women that are coming through, where are they coming from? And 
the fact is that at least on Wall Street, I believe that the 
pipeline issue has absolutely no merit, and I'll tell you why.
    In part, because as I referred to, there has been a ton of 
growth over the last several years in the securities industry. 
But more important, unlike in industrial companies where you 
see that the average career span required to reach a level of 
senior authority would be 25 to 35 years, men in the securities 
industry can achieve the highest levels of management in as 
little as 7 years. And commonly under 10 years. So while you 
might say that they just haven't come up yet, in fact in the 
last 20 years we've had many, many, many generations of people 
coming through the pipeline. So that pipeline question----
    Mr. Horn. Thank you for that clarification. We'll now yield 
5 minutes to the ranking member, Ms. Schakowsky.
    Ms. Schakowsky. I really want to thank this panel for their 
testimony and the last panel as well. Ms. Wilson talked about 
perception and I wanted to refer to the first two, and is it 
Schieffelin?
    Ms. Schieffelin. Schieffelin.
    Ms. Schakowsky. I want to at least thank you for your 
courage to take on your employer and also acknowledge what you 
were saying, that you had the wherewithal to do that, and you 
are doing it in many ways on behalf of all those women who 
can't, and maybe they are the next generation that you will 
pave the way for. But math and science, one of the perceptions 
is that women just aren't that good at it and aren't going to 
achieve. And what you're telling me is that in some ways, that 
stereotype is reinforced by barriers within the workplace 
itself. That even for those women who have achieved the heights 
in terms of academic achievement and professional achievement, 
those barriers are there.
    And I think really for all of the panelists, the question 
is why? What are those employers, what are those institutions, 
what are they saying is the reasons? I noted in your written 
testimony, there was no answer for why you were not promoted. 
What at least on paper are they telling us about why women 
aren't on the talk shows why they are not advancing in the 
communications industries and in science and in the securities 
industries? What are we hearing?
    Ms. Schieffelin. It's very interesting, because in my 
entire career at Morgan Stanley, despite the annual 360-degree 
thorough review process, that at not one point was I ever told 
by my management that I lacked leadership or interpersonal 
skills. In fact, there were no major criticisms of my skills in 
any of my reviews going back to 1995.
    So I have to point to Ms. Wilson's argument and tell you 
that after the fact, Morgan Stanley said that even though I 
probably did not know it because I had never been told that I 
lacked leadership and interpersonal skills, even though I ran 
the MBA program and I ran a bunch of initiatives for them in 
computer development, all of a sudden there is a perception out 
of nowhere that women are not leaders. And that's the only 
thing I can think of because it struck me so hard when Ms. 
Wilson presented that in our perceptions of men versus women.
    Ms. Schakowsky. Ms. Chander, why? What's the explanation 
when challenged? And your report has now been out for a while. 
Is there any excuse given?
    Ms. Chander. No, I have not personally challenged anybody 
about this, but I have spoken anecdotally to various persons 
and I don't know what to make of it, but there was expressed 
surprised from many men that the wage gap was that significant.
    I can only conjecture on my personal belief that I think 
women accept these lower levels of pay and they continue with 
their work life.
    Ms. Schakowsky. And maybe for the reasons that Ms. 
Schieffelin said that, challenging is risky. And that would add 
to maybe part of the answer. Is it unconscious? Is there a 
level of on which this kind of what turns out to be 
discrimination is unconscious? I leave that as an open 
question, too, Ms. Ness?
    Ms. Ness. Part of it is tied to cultural aspects so it is 
not perceived as discrimination. If an executive just picks 
from among his friends to fill the highest level position, it's 
not a question of academics. It's not a question of experience. 
It's not a question of leadership skills. It is really who your 
buddies are and who they are in those circles when the time 
comes to expand or to be promoted.
    An example of progress: After the study, we met with the 
heads of several of the major trade associations. As a result 
of that meeting, NCTA, the National Cable and 
Telecommunications Association, which had no female members on 
its board of directors, revised its bylaws because there are no 
women who are the CEOs of the multiple system cable operators 
[MSO]. The bylaws previously required board members to be a CFO 
and an MSO, so it was not possible for the NCTA to have a woman 
on its board based on its own bylaws. NCTA has changed its 
bylaws and now CEOs of programming companies who are members of 
the NCTA are now eligible. There are now two women on the NCTA 
board.
    It does make a difference, but it only happens because 
people talked about it, and met on it, and raised the issue.
    Last, the notion that you can't have kids and be the head 
of corporations is just bunk. Within the communications arena--
--
    Ms. Schakowsky. If you are a woman.
    Ms. Ness. If you are a woman. Exactly right. Within the 
communications arena, I can point to many, many CEOs who are 
extremely successful CEOs and extremely successful parents. It 
can be done.
    Ms. Wilson. I just wanted to followup on this whole 
business of are we looking at stereotypes? Is it 
conspiratorial? How does this happen? We also went to meet with 
the executive producers of the Sunday shows because I think all 
of us are not into reports to beat and punish; we're into 
reports to move things along. And we went to--I sat with some 
women who are incredibly astute, thoughtful, who were the 
producers and who were very upset to find that these Sunday 
shows were not reflecting women because they were women.
    The first meeting we had--I won't name the show--the woman 
said, it's only because women are not in these leadership 
positions that they are not there. And every time you can show 
us, we have gone through your study and they're just not there. 
And so we said we called attention to this piece that I 
mentioned about the Intelligence Committee, and we showed them 
how often they had to dip under the women who were underneath 
the ranking member or the chair of the committee to go over 
Feinstein. They were shocked because I don't think they meant 
to dip under her.
    I think it's that whole business that if we are not 
attentive all the time to this, and also not vigilant and also 
not held accountable that you do think, oh, it is intelligence, 
it's war, we forget the number of women who are into this, not 
just at the national level, not just in the military, but in 
the State levels who are kind of risk management opportunities.
    And so it is a matter of the people at the top, the people 
who are heading up the parties saying we want these women seen, 
and it is also a matter of the bookers looking beyond, that is 
their job. And since then, I have talked to people who have 
booked on these shows and they said yes, it is a matter of 
looking beyond, because they are there.
    Ms. Schakowsky. I watched for a difference since the 
release of your report. I haven't really seen any. I saw 
Hillary Clinton was on after the weekend after you had released 
it, but I haven't seen much since. Are you keeping track?
    Ms. Wilson. We're keeping track, absolutely. And we will 
release a report soon so we can tell you whether anything 
happened. I can only tell you that at least in talking to one 
woman that has sometimes been on the talk shows, she said to me 
when I was managing--it was Donna Brazile who told me when she 
was managing Gore's campaign, that she hardly had been on at 
all, but she had been on three times since the report came out. 
So she thought it might have made some difference. But I do 
think that calling attention to things makes a difference, and 
we'll be providing the names of people as well. So----
    Ms. Schakowsky. You ought to put Nancy Pelosi on the list 
as the highest ranking woman, and since Mrs. Maloney has 
released ``Woman After Woman,'' she ought to be on the list 
too.
    Ms. Wilson. People thought we did this to promote Pelosi, 
but that is not why we did this.
    Mr. Horn. Mrs. Maloney for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman. I thank all of our 
panelists. I believe all of you have made a tremendous 
difference. One of the reasons that I did our report was 
because of your report that prompted me to think more about the 
subject and want a broader view of it. I keep my own count. I 
think you have made a difference on TV, Ms. Wilson. I think 
they have changed it a little bit. All of your reports are very 
important.
    One of the things that you said, Ms. Ness, that mirrored 
what Ms. Mello had said earlier, you stated that passage of 
time alone is not enough to get women in the top positions. 
Quite frankly, I have talked to firms in my area and they have 
noticed that women at the top have decreased since the 1970's 
and 80's. There are fewer and they don't know why.
    What needs to be done to get women into these clout 
positions? And I ask all the panelists if they would like to 
share their views on it.
    Ms. Ness. Certainly, the visibility that you are providing 
today, the visibility by virtue of the discussion on the talk 
shows makes a difference in waking people up to the fact that 
there is a huge disparity. Mentoring at the highest levels is 
extremely helpful to make sure that women are taking the right 
steps that will lead to positions of power and leadership 
succession and not into more dead-end, more traditional jobs, 
where women typically end up.
    The studies have demonstrated that where there are women 
who are EVPs, the women often are in the public affairs 
position or in human resources, but not in management 
positions. So getting women to understand those pathways is 
vitally important and doing it both at the top levels and also 
early in their careers. And these concepts should come from top 
down. That is very important, because unless it is a commitment 
at the top it doesn't happen. And we heard story after story, 
where women were at the top of these companies, you ended up 
with a more balanced board of directors, you ended up with more 
female executive vice presidents and the like.
    So it does matter. Shining the light on this issue makes a 
big difference. Focusing on family friendly policies is vitally 
important. I can't underscore that enough. One consulting firm 
found that it was not able to retain women, and after they 
examined the problem, they found that some of their managers 
were calling meetings at 5 o'clock in the evening for 7 o'clock 
that same night. These were not emergencies. A lot of women who 
take primary responsibility for picking up their children at 
day care couldn't do it. If they had had a day's notice, they 
might have been able to attend.
    So the policy at that company changed. Instead of managers 
being valued for working really late and calling late meetings, 
those managers were criticized for not managing well. And as a 
result, little by little, the policies changed. Those policies 
became much more family friendly, and the firm was able to do a 
better job retaining and promoting women to partnership.
    Mrs. Maloney. Would anyone else like to comment on this 
question?
    Ms. Schieffelin. I have to add something, which is that in 
the line positions when you talked about the difference between 
line and staff positions, it is incredibly important on Wall 
Street. Because in the line positions on a trading desk a 
woman, in order to be successful, has to be as aggressive and 
as outspoken and as demanding of the trader's time and 
attention as the men are. But those are not traits that are 
appreciated in women, although they are absolutely requisite 
for success in a trading environment.
    So I see that women were pushed off of line positions into 
staff functions that are less promotable in part because the 
aggressiveness is bitchiness or snippiness when it comes from a 
woman. That same behavior is so revered in men in line 
positions on Wall Street.
    Ms. Wilson. I want to add one more thing to this that I 
think is very interesting. In a Deloitte and Touche poll and 
confirmed by a Roper Starch poll, that close to 79 or 80 
percent of women for women to be seen as competent leaders in 
business, they have to be seen as a leader in politics because 
that is the front end of where people see and learn to trust 
women. And right now, if you look at where the people of 
America trust women to lead in politics, they trust us in 
Congress, they trust us in city council----
    Ms. Schakowsky. Not enough, 14 percent.
    Ms. Wilson. They don't trust us enough to get more of us in 
there. Let me say they trust us because men and women vote 
equally for them. I should put that as the indicator of trust. 
And they are just as likely to vote for a women as a men in 
those positions, but when you get into the mayors of large 
cities, when you get to actually the Governors, when you get to 
the Vice President or the President, that gap widens.
    And so we really have to--that's why to have women who are 
at the very top be seen is important, not just political women, 
not just for the women in politics, but women up and down the 
line and having done focus groups with men and women of 
different races and classes around this issue, they feel until 
they we have women in those positions, they do not feel 
respected in their daily lives.
    Mrs. Maloney. Since you say that women politicians are 
important for moving women forward in this country, when you 
look at language that the press uses to describe women 
politicians--in the last fight for the $20 billion that the 
President promised us, male members who spoke up and fought for 
it and issued reports that we were not giving the $20 billion 
were called effective, I was called extremely shrill in 
continuing to point that out. And when I was elected to 
Congress, one of the major papers attributed my election to my 
``puppy dog enthusiasm.'' I don't think any male politician in 
Congress has ever been called puppy dog in their entire 
careers.
    I think it is unusual to have Ms. Schieffelin here. I think 
your courage speaks for all women. And that every woman is 
standing on your shoulders. How do you respond to the arguments 
made earlier that women choose to work less hours and are 
therefore especially less likely to advance? Did you say that 
women were working less hours in your competitive positions 
that you were in?
    Ms. Schieffelin. Absolutely not. In fact, quite the 
opposite.
    Mrs. Maloney. Thank you. Very, very briefly. I know you 
worked much, much more. I hate to ask a personal question, I 
wonder if you would share with us, do you have children?
    Ms. Schieffelin. I am single and I have no children.
    Mrs. Maloney. So therefore, your alleged discrimination we 
heard a lot that if women had children, they can't handle it, I 
would argue that they are better capable of handling it. I 
thank you all for doing this. Especially the chairman, for 
coming to New York for a field hearing. I am deeply 
appreciative as are the people of my district and across the 
country. And Ms. Schakowsky.
    Mr. Horn. I thank both you and Jan. And a hearty thank you 
to the staff, J. Russell George a New Yorker, and he is the 
chief counsel staff director. Dan Moll, our deputy chief of 
staff for the full committee was here. I don't know if he is 
back here or not. Bonnie Heald to my left is the deputy staff 
director, and Justin Paulhamus is the majority clerk. There he 
is.
    Now we get to the minority staff, David McMillen, 
professional staff member. And we have also many people to 
thank on Mrs. Maloney's staff in particular, and that's Orly 
Isaacson, senior legislative assistant to Congresswoman 
Maloney; and Ben Chevat, Mrs. Maloney's chief of staff, Minna 
Elias, that's the New York chief of staff; Phil Craft, the 
deputy chief of staff for Mrs. Maloney; Jessica Fox, director 
of constituent services for Mrs. Maloney. I am beginning to 
think she has as many assistants as the President of the United 
States.
    Mrs. Maloney. No, the whole staff is working on this 
because we think it is important.
    Mr. Horn. Yvonne Morrow, director of constituent services 
for the Speaker of New York State Assembly, Stanley Silver, we 
thank very much for the use of this room in particular. And our 
faithful court reporter who has to untangle all of what I have 
said, Joe Strickland. Thank you, Mr. Strickland, and we 
appreciate all of your work. And with that, we are adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]


</pre></body></html>
